U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products


FOOD SAFETY AND INSPECTION SERVICE
  IMPORTED MEAT AND POULTRY
      INSPECTION PROCESS
            PHASE 1




                        Report No.
                        24099-3-Hy
                        June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:         June 21, 2000

REPLY TO
ATTN OF:      24099-03-Hy

SUBJECT:      Imported Meat and Poultry Inspection Process

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’ K. Glavin
              Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’ s
oversight and controls to ensure that imported meat and poultry products entering
U.S. Markets are safe and wholesome. This review is part of the Office of Inspector
General’ s food safety initiative, which also included the implementation of the Hazard
Analysis and Critical Control Point System, District Enforcement Operations’ compliance
activities, and the agency’ s procedures established for testing meat and poultry products.
Your response to the official draft report, dated June 7, 2000, is included as exhibit A with
excerpts and the Office of Inspector General’ s position incorporated into the Findings and
Recommendations section of the report. Based on your response, management decisions
have been reached on all recommendations except Nos. 6, 14, 15, 16, 19, 26, 32, and 33.
 Please follow your agency’ s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer. Management decisions can be reached
once you have provided the additional information outlined in the report sections, OIG
Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/

ROGER C. VIADERO
Inspector General
                    EXECUTIVE SUMMARY
                FOOD SAFETY AND INSPECTION SERVICE
                   IMPORTED MEAT AND POULTRY
                       INSPECTION PROCESS
                             PHASE 1
                       AUDIT NO. 24099-03-Hy



                                   This report presents the results of the first
     RESULTS IN BRIEF              phase of our evaluation of controls to
                                   ensure that imported meat and poultry
                                   entering U.S. consumer channels is safe
        and wholesome. This review was part of the Office of Inspector
        General’s food safety initiative, which also included the
        implementation of Hazard Analysis and Critical Control Point System,
        District Enforcement Operations’ compliance activities, and the
        procedures established for U.S. Department of Agriculture laboratory
        testing.

           The Food Safety and Inspection Service (FSIS) fulfills its responsibility
           for ensuring that imported meat and poultry in the U.S. marketplace is
           safe and wholesome by (a) determining if foreign countries and their
           establishments have implemented food safety systems and inspection
           requirements equivalent to those in the United States, and
           (b) reinspecting imported meat and poultry products from these
           countries, on a spot-check basis, to verify the purity of the imports.

           FSIS administers its food imports safety program primarily through the
           Office of Field Operations, which reviews foreign countries’ inspection
           systems and reinspects imported meat and poultry products at ports
           of entry, and the Office of Policy, Program Development and
           Evaluation, which makes equivalence determinations of foreign
           country inspection systems. These review and reinspection activities
           form the basis of FSIS' determinations of whether a country's systems
           are equivalent to U.S. standards.

           Equivalency determinations are FSIS' way of applying the new
           requirements of the Pathogen Reduction Program and the Hazard
           Analysis and Critical Control Points (HACCP) Program to overseas
           operations. Our objective for this phase was to evaluate FSIS
           policies, procedures, and controls for implementing these programs in

USDA/OIG-A/24099-3-Hy                                            Section III, Page i
              a continuing effort to ensure that food safety systems in foreign
              countries are equivalent to those in the United States. As part of this
              objective, we assessed how effectively FSIS carried over its import
              inspection controls when it reorganized its operations in 1997.

              During Phase II and Phase III of our review, we will examine import
              reinspection activities at selected U.S. ports, and initial equivalence
              determinations for new countries.

              During a 1996 audit we performed of the import inspection program,
              we recommended that for purposes of reorganization, FSIS develop
              procedures to ensure that controls present under the pre-HACCP
              structure would carry over under the new structure. FSIS did not fulfill
              this recommendation. FSIS implemented its reorganization without
              developing a comprehensive, detailed plan to ensure that controls
              were maintained over import inspection operations. Detailed control
              processes and procedures for determining the equivalency or the
              continuing eligibility of foreign inspection programs to export meat and
              poultry products to the United States were not adequately developed,
              were not incorporated in formal agency procedures for distribution to
              responsible personnel, or were not functioning as required by
              regulation. Responsibilities were also not well defined, resulting in
              unclear lines of authority, minimal supervisory oversight, and training
              goals that had not been achieved. The absence of a strong internal
              control structure does not provide reasonable assurance that
              objectives of the import inspection program are being achieved.
              Nothing came to our attention during this audit, however, to indicate
              FSIS allowed unsafe products to enter U.S. commerce.

              We found that the absence of formal procedures affected all areas of
              the import inspection program: requirements for annual certifications
              and residue test plans have gone unenforced; the eligibility status of
              importers has not been kept current; and FSIS' equivalency
              determinations of foreign countries' food safety systems have been
              based on insufficient documented analysis and support.

              Annual certifications. Foreign governments are required to certify
              annually that each of the establishments in their country that export
              meat and poultry products to the United States continue to comply
              with U.S. standards. FSIS did not enforce this requirement and
              19 countries were allowed to continue to export to the United States,
              even though they had not certified their establishments as meeting
              U.S. standards during 1999.



Section III, Page ii                                       USDA/OIG-A/24099-3-Hy
           Residue test plans. Foreign inspection systems are also required to
           maintain residue control standards equivalent to U.S. standards in
           order to identify the use of such residues determined by the exporting
           country's meat inspection authorities or by FSIS as potential
           contaminants. As of April 29, 1999, 15 of 36 countries that were
           certified to ship meat and poultry products to the United States had
           not submitted their 1999 residue test plans.

           Eligibility status of importers. When FSIS or foreign inspectors
           declared an establishment ineligible to export product to the United
           States, FSIS did not always timely update its reinspection system with
           this information. As a result, seven establishments from four foreign
           countries shipped over 4 million pounds of meat and poultry products
           and presented them for reinspection although they were delisted by
           their foreign inspection systems. Documentation provided by FSIS did
           not conclusively prove that all products were produced prior to the
           delistment date. Also, we could not determine whether FSIS timely
           updated its reinspection system with critical laboratory results of
           microbiological tests. These tests are used to determine if a product
           should be allowed to enter the United States at ports of entry. They
           are also used, in part, as a basis to determine how products should be
           sampled at ports of entry and what microbiological tests should be
           performed. Nothing came to our attention during this audit, however,
           to indicate FSIS allowed unsafe products to enter U.S. commerce.

           Analysis of foreign food safety systems. FSIS cannot demonstrate
           that it judged the foreign food safety systems of current trading
           partners according to U.S. standards. At the time of our audit, FSIS
           had not yet determined equivalence for HACCP and Salmonella
           standards. Control procedures for equivalency determinations were
           not developed or adequately documented, technical subject-matter
           experts were not always involved in the process, and specific areas of
           foreign inspection systems have not yet been reviewed to verify that
           they are equivalent to U.S. standards. FSIS' country files did not
           contain sufficient evidence of FSIS' analysis of the information the
           country governments submitted to document their inspection systems.
           Moreover, FSIS granted equivalency status for six countries before it
           performed onsite equivalency verification reviews, and the onsite
           reviews that were performed were not adequately documented to
           support what was reviewed and what deficiencies were found. FSIS
           also lacked timeframes within which to make SSOP and E. coli
           equivalency determinations, and failed to meet the timeframes
           established for HACCP and Salmonella standards.



USDA/OIG-A/24099-3-Hy                                         Section III, Page iii
              We concluded that inadequate planning for the transition to the new
              organization structure, as well as inadequate management oversight
              of the operational changes to the import inspection processes,
              contributed to the breakdown in controls that were designed to ensure
              the safety and wholesomeness of imported products entering the
              United States.

              The weaknesses disclosed during this audit are material control
              weaknesses in FSIS' import inspection program. As such, they should
              be included in the agency's annual management control report
              required by the Federal Manager's Financial Integrity Act.

                                      We recommend that FSIS conduct an
  KEY RECOMMENDATIONS                 assessment of the current organizational
                                      structure, clarify roles and responsibilities,
                                      and establish a system of management
         and operating control objectives and processes to ensure the safety
         and wholesomeness of imported meat and poultry products. FSIS
         also needs to conduct independent internal control reviews,
         emphasizing those processes that changed in the reorganization,
         provide management control training, and report the conditions
         disclosed in this audit as material management control weaknesses in
         the import inspection process.

              We also recommend that FSIS develop and implement formal
              procedures, approved by FSIS management, for all aspects of its
              import inspection program, most specifically those related to (1)
              making equivalency determinations based on an evaluation of each
              foreign country's food safety regulatory system, as appropriate, (2) its
              enforcement of sanitary measures, and (3) entering country eligibility
              information into FSIS' reinspection system. We also recommend that
              FSIS enforce the regulatory requirements for countries to submit their
              residue test plans and test results and establishment certifications by
              foreign inspection systems.

              Concerning equivalency determinations, FSIS needs to establish a
              time-phased plan to complete each determination and ensure that
              technical subject-matter experts are involved, as appropriate, in
              determinations; the determinations are documented; and onsite
              verification reviews are conducted prior to granting equivalency status.
              For current trading partners, FSIS needs to develop and implement a
              policy for onsite verifications of changes in the requirements for
              foreign systems and ensure that onsite audits are conducted annually.



Section III, Page iv                                       USDA/OIG-A/24099-3-Hy
                                        FSIS     accepted  33   of    the    35
    AGENCY RESPONSE                     recommendations     in   the     report.
                                        However, FSIS does not believe the
                                        issues outlined in the audit report
        constitute a material management control weakness. FSIS also
        believes management oversight of import inspection operations is
        adequate. We have incorporated excerpts from FSIS’ response in the
        Findings and Recommendations section of this report, along with the
        position of the Office of the Inspector General (OIG). FSIS’ response,
        in its entirety, is attached as Exhibit A.

                                       OIG disagrees with FSIS’ position that the
        OIG POSITION                   findings in this report are not material
                                       management control weaknesses and
                                       that evidence of management oversight
          was adequate. Basic internal control activities such as documented
          policies, procedures, supervisory reviews and approvals, delegated
          responsibilities, and clear lines of authority were lacking in FSIS’
          operations. OIG will continue to report our conclusion that the findings
          in this report are material management control weaknesses and
          should be reported in FSIS’ internal control and management
          accountability reports.




USDA/OIG-A/24099-3-Hy                                          Section III, Page v
Section III, Page vi   USDA/OIG-A/24099-3-Hy
                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................i
  RESULTS IN BRIEF ...........................................................................................i
  KEY RECOMMENDATIONS ............................................................................. iv
  AGENCY RESPONSE .......................................................................................v
  OIG POSITION..................................................................................................v
INTRODUCTION ................................................................................................. 1
  BACKGROUND .............................................................................................. 1
  OBJECTIVES................................................................................................... 5
  SCOPE ............................................................................................................ 5
  METHODOLOGY ............................................................................................. 6
FINDINGS AND RECOMMENDATIONS............................................................... 9
  CHAPTER 1 ..................................................................................................... 9
  FSIS MANAGEMENT CONTROLS OVER THE IMPORT INSPECTION
  PROGRAM NEED TO BE ENHANCED ............................................................. 9
  Finding No. 1................................................................................................. 10
  Recommendation No. 1.................................................................................. 14
  Recommendation No. 2.................................................................................. 15
  Recommendation No. 3.................................................................................. 15
  Finding No. 2.................................................................................................. 16
  Recommendation No. 4.................................................................................. 17
  Recommendation No. 5.................................................................................. 18
  Recommendation No. 6.................................................................................. 19
  Finding No. 3 ................................................................................................. 19
  Recommendation No. 7.................................................................................. 25
  Recommendation No. 8.................................................................................. 25
  Recommendation No. 9.................................................................................. 26
  Finding No. 4 ................................................................................................. 26


USDA/OIG-A/24099-3-Hy                                                                  Section III, Page vii
                                TABLE OF CONTENTS

 Recommendation No. 10 ................................................................................ 33
 Recommendation No. 11 ................................................................................ 34
 Recommendation No. 12 ................................................................................ 34
  CHAPTER 2.................................................................................................... 37
  THE REINSPECTION PROCESS DID NOT ENSURE THAT INELIGIBLE
  IMPORTERS WERE PROPERLY IDENTIFIED AND THAT RECOGNIZED
  PATHOGEN VIOLATIONS WERE RESPONDED TO PROMPTLY..................... 37
 Finding No. 5.................................................................................................. 38
 Recommendation No. 13 ................................................................................ 40
 Recommendation No. 14 ................................................................................ 41
 Finding No. 6.................................................................................................. 42
 Recommendation No. 15 ................................................................................ 45
 Recommendation No. 16 ................................................................................ 46
 Recommendation No. 17 ................................................................................ 46
 Recommendation No. 18 ................................................................................ 47
 Finding No. 7.................................................................................................. 48
 Recommendation No. 19 ................................................................................ 52
 Recommendation No. 20 ................................................................................ 53
 Recommendation No. 21 ................................................................................ 54
 Recommendation No. 22 ................................................................................ 54
 Finding No. 8.................................................................................................. 55
 Recommendation No. 23 ................................................................................ 56
 Recommendation No. 24 ................................................................................ 57
 Recommendation No. 25 ................................................................................ 57
 Recommendation No. 26 ................................................................................ 58




Section III, Page viii                                                      USDA/OIG-A/24099-3-Hy
                                 TABLE OF CONTENTS

  CHAPTER 3 .................................................................................................... 61
  FSIS DOCUMENTATION OF APPROVED FOREIGN FOOD SAFETY
  SYSTEMS NEEDS TO BE ENHANCED............................................................ 61
  Finding No. 9.................................................................................................. 62
  Recommendation No. 27 ................................................................................ 65
  Recommendation No. 28 ................................................................................ 66
  Finding No. 10 ................................................................................................ 66
  Recommendation No. 29 ................................................................................ 74
  Finding No. 11 ................................................................................................ 74
  Recommendation No. 30 ................................................................................ 75
  Finding No. 12 ................................................................................................ 76
  Recommendation No. 31 ................................................................................ 79
  Recommendation No. 32 ................................................................................ 79
  Recommendation No. 33 ................................................................................ 80
  Finding No. 13 ................................................................................................ 81
  Recommendation No. 34 ................................................................................ 84
  Finding No. 14 ................................................................................................ 84
  Recommendation No. 35 ................................................................................ 86
GENERAL COMMENTS..................................................................................... 87
  EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT................................ 91
  EXHIBIT B – COUNTRIES ALLOWED TO CONTINUE EXPORTING TO
  THE UNITED STATES PRIOR TO IMPLEMENTATION OF HACCP................ 115
ABBREVIATIONS ............................................................................................ 116




USDA/OIG-A/24099-3-Hy                                                                 Section III, Page ix
                          INTRODUCTION

                                      The Federal Meat Inspection Act and the
       BACKGROUND                     Poultry Products Inspection Act require
                                      foreign countries that export meat and
                                      poultry to the United States to establish
         and maintain inspection systems that are equivalent to the U.S.
         inspection system. Meat and poultry imported into the United States
         must originate in countries and plants approved to export to the United
         States. FSIS is responsible for (1) reviewing and assessing foreign
         inspection systems and facilities that export meat and poultry to the
         United States to ensure that standards are equivalent to those in the
         United States, and (2) reinspecting imported meat and poultry
         products at ports of entry to ensure that only safe, wholesome,
         unadulterated, and properly labeled products enter U.S. commerce.

           Food safety equivalence evaluations are based upon provisions in the
           Agreement on the Application of Sanitary and Phytosanitary Measures
           (Agreement), which appears in the Final Act of the Uruguay Round of
           Multilateral Trade Negotiations, signed on April 15, 1994. The
           Agreement became effective in January 1995 concurrently with
           establishment of the World Trade Organization, which superseded the
           General Agreement on Tariffs and Trade (GATT), as the umbrella
           organization for international trade. Article 4.1 of the Agreement
           requires each member to accept as equivalent the food regulatory
           system of another country if the exporting member objectively
           demonstrates to the importing member that its measures achieve the
           importing member's appropriate level of sanitary protection.
           Regulations governing FSIS operations are codified in 9 Code of
           Federal Regulations (CFR) Chapter III, Parts 300, 416, and 417.

           Under FSIS' pathogen reduction/Hazard Analysis and Critical Control
           Point (HACCP) regulatory proposal published in February 1995,
           HACCP programs would be required in meat and poultry plants, along
           with interim targets for pathogen reduction in slaughter establishments
           and microbial testing to meet those targets. In fiscal year (FY) 1996,
           the Final Rule was published on the pathogen reduction system and
           the HACCP system. Under these systems, a country's status as
           having controls and performance standards "equivalent" to those in
           the United States is determined in four areas.



USDA/OIG-A/24099-03-Hy                                        Section III, Page 1
                 HACCP. All plants must develop, adopt, and implement a HACCP
                 plan for each of their processes. Under HACCP, plants identify
                 critical control points during their processes where hazards such as
                 microbial contamination can occur, establish controls to prevent or
                 reduce those hazards, and maintain records documenting that
                 controls are working as intended.

                Mandatory Generic Escherichia coli (E. coli) testing in slaughter
                plants. All meat and poultry slaughter plants are required to
                conduct microbial testing of carcasses for generic E. coli as an
                indicator of the adequacy of the plant's control over fecal
                contamination.

                Pathogen reduction performance standards for Salmonella.
                Slaughter plants and plants producing raw ground products are
                required to ensure that their Salmonella contamination rate is
                below the current national baseline incidence.

                Sanitation Standards Operation Procedures (SSOP). As of the
                beginning of 1997, all plants were required to implement
                plant-specific operating procedures for sanitation to ensure they
                were meeting their responsibility to keep their facilities and
                equipment clean.

             Prior to FSIS' reorganization, FSIS focused on individual plants and
             evaluated whether foreign food regulatory systems were "at least
             equal to" the U.S. system. The principle underlying FSIS' current
             import inspection activities is the "systems approach," which focuses
             on a country's overall inspection system rather than on individual
             plants. The systems approach includes an evaluation of the
             inspection system of each country seeking to export or already
             approved to export to the United States to ensure it has inspection
             controls equivalent to those of the United States. FSIS does not
             suspend trade with exporting countries while this process is underway.

             Because the eligibility of countries to export meat or poultry to the
             United States was initially evaluated on a case-by-case basis through
             analysis of applications followed by onsite audits, all "at least equal to"
             countries that were eligible for export of meat and poultry to the United
             States were allowed to continue to export to the United States until
             their inspection systems could be determined "equivalent" under the
             pathogen reduction/HACCP standards. A total of 37 countries were
             approved under the "equal to" system. The burden for demonstrating
             equivalence rests with the exporting country and the importing country


Section III, Page 2                                         USDA/OIG-A/24099-3-Hy
           is free to set any level of protection it deems appropriate to control or
           eliminate a food safety hazard.

           Before a foreign country can initially export meat or poultry to the
           United States, it must apply for a determination of equivalency.
           Applications must contain enough technical and scientific evidence for
           FSIS to determine that the country's sanitary measures, oversight,
           and enforcement are equivalent to the U.S. system. This evaluation is
           to consist of a document review and an onsite equivalency verification
           review. The initial equivalence determination for a new trading partner
           is subject to notice and comment rule making when the country is
           listed in the Code of Federal Regulations as eligible to export to the
           United States.

           A document review is an evaluation of laws, regulations, directives,
           and other written material used by the foreign country to operate its
           inspection program. FSIS will evaluate the country's inspection
           system in five risk areas which include controls over animal diseases,
           sanitation, residue, processing and slaughter, and enforcement. If the
           document review finds the country's system satisfactory, FSIS will
           conduct an onsite equivalency verification review to evaluate the
           foreign country's oversight program and practices, and to determine
           whether system controls are operating as represented to FSIS.

           After a country is determined to have an equivalent system and is
           eligible to export to the United States, FSIS will rely on the country to
           carry out daily inspections. However, FSIS will monitor the country's
           activities. Besides randomly sampling meat and poultry products for
           reinspection as they enter the United States, FSIS will conduct onsite
           reviews of the country's inspection systems to ensure that its
           procedures and standards remain equivalent. Reviewers will visit
           certified plants and focus on the five areas of risk. These reviews
           should generally be conducted annually, but their frequency depends
           on the country's performance history and on the results of product
           reinspections at the ports of entry. A total of 30 onsite reviews were
           conducted in exporting countries in 1997, and a total of 24 in 1998.
           Based on information provided to us during the field work phase, 13
           onsite reviews had been conducted in 1999.

           The reinspection of imported meat and poultry products at U.S. ports
           of entry provides FSIS with a means of assessing the effectiveness of
           a foreign government's inspection system while ensuring that only
           safe, wholesome, unadulterated, and properly labeled products enter
           U.S. commerce. Reinspection is directed by FSIS' Automated Import


USDA/OIG-A/24099-3-Hy                                           Section III, Page 3
             Information System, which stores reinspection results from all ports of
             entry for each country and plant. A description of each lot arriving at
             any of the approximately 150 official U.S. import inspection
             establishments is entered into the Automated Import Information
             System. Lots are reinspected for transportation damage, labeling,
             proper certification, general condition, and accurate count. The
             Automated Import Information System may, for example, generate
             residue and microbiological laboratory test assignments based on the
             compliance histories of the plants, countries, and products being
             presented for reinspection. Products that pass reinspection are
             allowed to enter U.S. commerce; products that do not pass are
             stamped "U.S. Refused Entry" and must be exported, destroyed, or
             converted to animal food.

             FSIS administers its imported meat and poultry inspection program
             primarily through the Office of Policy, Program Development and
             Evaluation, which reviews food safety requirements imposed by
             foreign governments, and the Office of Field Operations, which
             inspects overseas plants and imported meat and poultry products.
             These review and inspection activities form the basis of FSIS'
             determinations of whether a country's inspection systems are
             equivalent to U.S. standards.

             Within the Office of Policy, Program Development and Evaluation, the
             International Policy Division is responsible for providing leadership in
             international policy development for all programs, regulations, and
             activities for the agency. Within this division, the Equivalence and
             Planning Branch is responsible for formulating policies for determining
             a foreign country's eligibility to export meat and poultry products to the
             United States.

             During 1998, the United States imported about 3 billion pounds of
             meat products and about 53 million pounds of poultry products. The
             volume of imports from Australia, Canada, New Zealand, Argentina,
             and Denmark totaled approximately 2.8 billion pounds during 1998.
             About 21 percent of the products presented to FSIS for reinspection
             were subjected to further examinations including laboratory analysis,
             product examination, and condition of containers. Approximately
             1.6 percent of these reinspected products were rejected for
             contamination, processing defects, unsound condition, violative net
             weight, pathological or labeling defects, missing shipping marks,
             composition/standard, Animal and Plant Health Inspection
             Service/Veterinary Services requirements, residues, container
             condition, transportation, or miscellaneous reasons.


Section III, Page 4                                        USDA/OIG-A/24099-3-Hy
           For 1999, about 3.3 billion pounds of meat and poultry products were
           shipped by foreign countries to the United States and presented for
           FSIS reinspection. The countries which shipped the greatest amount
           of meat and poultry products in 1999 were: Canada (1.6 billion
           pounds), Australia (735 million pounds), New Zealand (461 million
           pounds), followed by Denmark (119 million pounds), Brazil       (106
           million pounds), Argentina (103 million pounds), and Uruguay, (51
           million pounds). These seven countries accounted for nearly       97
           percent of the total meat and poultry products shipped by foreign
           countries to the United States during 1999. Fresh red meat
           represented over 85 percent of the total amount – nearly 13 percent
           was processed product, and the remainder was fresh poultry.

           With the advent of HACCP and the pathogen reduction program, FSIS
           began implementing a comprehensive reorganization of the agency to
           streamline its operations and increase the efficient use of its
           resources. By 1997, FSIS substantially completed this reorganization.
           The new field structure unified four separate functions to carry out all
           inspection and compliance activities, 46 regional and area offices
           were reduced to 18 district offices, and a Technical Service Center
           was opened in Omaha, Nebraska, to provide inspection expertise for
           the onsite reviews and the port-of-entry reinspection process.

                                    The purpose of our review was to
        OBJECTIVES                  evaluate FSIS' policies and procedures to
                                    ensure that foreign countries and their
                                    establishments       have      adequately
         implemented food safety systems and inspection requirements
         equivalent to U.S. requirements. Our secondary objective was to
         determine whether controls that existed over the inspection process
         before FSIS reorganized had been maintained after reorganization.

                                        To      evaluate    FSIS'     policies  and
             SCOPE                      procedures over the food imports safety
                                        program, we focused on operations and
                                        statistical information for 1997, 1998, and
           1999 through July 1999. However, we reviewed prior years'
           operations as deemed necessary. During the next phases of our audit,
           we will continue our evaluation of the reinspection process, and the
           initial equivalence determination process.

           We performed work at FSIS' Headquarters in Washington, D.C., and
           the Technical Service Center in Omaha, Nebraska. Staff at FSIS'
           Headquarters are responsible for (a) developing international policy


USDA/OIG-A/24099-3-Hy                                          Section III, Page 5
             for all programs, regulations, and activities, (b) formulating
             equivalency determination policies, (c) determining a foreign country's
             eligibility for importation of meat and poultry products into U.S.
             markets, (d) managing a program of regulatory oversight and
             inspection to ensure that meat and poultry products are safe,
             wholesome, and properly labeled, and (e) maintaining FSIS' computer
             data base which assigns reinspection levels for meat and poultry
             products imported from those countries and establishments eligible to
             export products to the United States. We reviewed the files for
             37 countries who applied for equivalency determinations to determine
             whether equivalency determinations were adequately documented
             and whether procedures were in place to ensure regulatory
             requirements were met. As of April 15, 1999, 28 countries had been
             approved as equivalent for SSOP and E. coli testing procedures.
             During the course of our fieldwork, equivalency determinations
             (documentation reviews) were in process for HACCP and Salmonella
             standards; therefore, we did not comment on these areas in this
             report. We will review these areas in a future audit.

             Staff at the Technical Service Center are responsible for (a) providing
             technical assistance, guidance, and advice for inspection personnel
             and the industry, (b) conducting foreign reviews, including the
             development of systems, methods, and procedures for conducting
             these reviews, and (c) entering laboratory test failure results into the
             FSIS computer data base. The review system is intended to assure
             consumers that foreign countries seeking eligibility to export meat and
             poultry products to the United States, or those already determined
             eligible to do so, have an inspection system equivalent to U.S.
             requirements.

             Our work was initiated in October 1998 and was conducted in
             accordance with generally accepted Government auditing standards.

                                       To accomplish our objectives, we
         METHODOLOGY                   discussed current operations with FSIS
                                       officials and staff and reviewed supporting
                                       documentation. At FSIS Headquarters,
           we concentrated on the responsibilities of the Office of Policy
           Program, Development and Evaluation; the Office of Field Operations;
           and the Office of Management Internal Control Staff. Our review
           included analysis of records and other documents and discussions to
           determine if agency responsibilities are being carried out as intended
           by regulation.



Section III, Page 6                                       USDA/OIG-A/24099-3-Hy
           At the Office of Field Operations' Field Automation and Information
           Management Division, we familiarized ourselves with FSIS' computer
           data base, the Automated Import Information System. We obtained a
           basic understanding of how information is entered into the Automated
           Import Information System relating to foreign country and
           establishment certifications and laboratory test results, and we
           obtained the Automated Import Information System computer
           printouts of products presented for FSIS reinspection by foreign
           countries.

           At the Technical Service Center, we acquired a basic understanding
           of the evolving responsibilities regarding the reinspection process,
           particularly those related to laboratory test results. We also obtained
           information about the role of the Technical Service Center foreign
           review staff in conducting audits to ensure that the inspection systems
           of foreign countries comply with equivalency requirements.

           At FSIS' Headquarters offices, we reviewed documentation and
           performed analysis of files for all 37 countries that applied for
           participation in the import program under the HACCP and pathogen
           reduction standards.      We also evaluated procedures used to
           determine whether country inspection systems were equivalent to
           those in the United States. We reviewed and analyzed procedures
           used by FSIS to implement the requirements of the Federal Managers
           Financial Integrity Act.       These documents included yearend
           management control reports and FSIS directives for management
           controls.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 7
Section III, Page 8   USDA/OIG-A/24099-3-Hy
         FINDINGS AND RECOMMENDATIONS

                 FSIS MANAGEMENT CONTROLS OVER THE
 CHAPTER 1       IMPORT INSPECTION PROGRAM NEED TO BE
                 ENHANCED

           Office of Management and Budget (OMB) Circular No. A-123,
           Management Accountability and Control, dated June 1995, states that
           agency managers shall incorporate management controls in the
           strategies, plans, guidance and procedures that govern their programs
           and operations. However, we found that when FSIS reorganized,
           management controls and written operational procedures were
           inadequate to assure that controls over the import inspection program
           were maintained under the new organizational structure. Our review
           disclosed: a lack of management controls over key import inspection
           functions; inadequate documentation to support the equivalence
           determination process; non-compliance with existing controls; a lack
           of documentation to ensure that ongoing monitoring and supervision
           occurred; and processes that did not reflect operating procedures as
           outlined in functional statements and documents provided to the
           Office of Inspector General (OIG) and the general public. In addition,
           all personnel have not received adequate training for the tasks
           assigned. FSIS implemented the reorganization prior to developing a
           comprehensive, detailed plan to ensure the effectiveness of controls
           over all aspects of the import inspection process. In the absence of
           sufficient management controls, there is reduced assurance that the
           goals and objectives of the import inspection program are being
           fulfilled.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 9
                                               The U.S. General Accounting Office’s
              FINDING NO. 1                    Standards for Internal Control in the
                                               Federal Government,1 dated November
             COMPREHENSIVE                     1999, states that internal controls should
             REORGANIZATION                    provide reasonable assurance that the
          IMPLEMENTATION PLAN                  objectives of the agency are being
           WAS NOT DEVELOPED                   achieved.     We found that program
                                               controls have not been established or are
                                               inadequate to assure that the import
                 inspection program is operating as intended. Although FSIS had
                 originally planned to reorganize over a 3-year period, a decision was
                 made to make the transition to the new structure within 1 year. As a
                 result, the transition was made without FSIS ensuring adequate
                 controls were in place and functioning. The separation of functions
                 that resulted from the reorganization requires considerable
                 coordination between staffs which, in key areas, has either not
                 occurred, or not effectively occurred. In addition, a planned retraining
                 program for FSIS personnel has not been fully implemented.

                    As a result of our requests for documentation to support FSIS'
                    transition to its current organizational structure, we were provided with
                    a history of planning proposals that were never carried out, and a
                    "Top-to-Bottom Review" that was self-described as a brainstorming
                    project. This internal FSIS review recognized the need to establish
                    and maintain a strong internal control structure within FSIS.

                    In February 1995, FSIS published a proposed rule, Pathogen
                    Reduction; Hazard Analysis and Critical Control Point (HACCP)
                    Systems, which outlined its strategy to change inspection to a more
                    scientific, industry performance-based system that would better
                    protect the public health. In conjunction with the proposed rule, the
                    FSIS Administrator announced that the Agency would look at itself
                    from "top to bottom" and define an organizational structure compatible
                    with the goals and strategies of the pathogen reduction/HACCP
                    regulation.

                    FSIS prepared a report, entitled "Top-to-Bottom Review," dated
                    August 1995, which outlined FSIS' regulatory roles and proposed an
                    organizational structure. The review recommended that FSIS appoint
                    an implementation team to develop a reorganization plan, assess the
1
    These standards were updated in 1999 because of revisions to OMB Circular A-123 and other laws that have
    prompted a renewed focus on internal control (The Government Performance and Results Act of 1993, the
    Federal Financial Management Improvement Act of 1996). The federal standards also recognize internal
    control guidance developed by the Committee of Sponsoring Organization of the Treadway Commission
    (COSO) ).


Section III, Page 10                                                       USDA/OIG-A/24099-3-Hy
           organization on an ongoing basis, and identify complementary
           measures that would enhance organizational effectiveness. During
           our audit, we determined that many of the recommendations included
           in the "Top-to-Bottom Review" were not implemented by FSIS. We
           could not obtain information explaining why they were not.

           In 1996, the U.S. Department of Agriculture (USDA) Secretary
           announced a comprehensive reorganization of FSIS designed to
           prepare for implementation of HACCP.            An April 16, 1997,
           memorandum from the Director, Import Inspection Division, to the
           Deputy Administrator, Office of Field Operations, outlined a plan to
           provide assurance that the import inspection functions were properly
           controlled during the transition to the new organizational structure.
           The memorandum also recognized the OIG concerns about the
           change in management of the import inspection function and called for
           an assessment to be conducted after reorganization to determine
           what actions would be needed to properly control the reinspection of
           imported products for the long term. However, many of the activities
           outlined in this plan were never accomplished, and, again, we could
           not obtain information explaining why they were not.

           According to an FSIS official involved in the transition, it was important
           that all facets of the transition connect before the reorganization was
           officially implemented. One important facet involved inspector
           retraining. Former Import Field Office Supervisors were converted to
           Import Coordinators and were to assist District Managers and Circuit
           Supervisors as they gained import inspection expertise. It was
           important that domestic inspectors receive import inspection training
           because domestic and import inspections have notable differences.
           For example, if the hindquarter of a carcass contains E. coli-causing
           fecal traces or some other defect, the domestic inspector can allow
           the affected portion to be removed. However, the import inspector
           would be required to reject the entire shipment.

           According to the proposed transition plan, the reorganization was to
           be completed over a 3-year period ending September 1998.
           However, before it was assured that all of the components of
           the transition were in place, including inspector retraining, an
           October 23, 1997, memorandum from the Deputy Administrator, Field
           Operations, stated that all supervisory responsibilities for import
           inspection activities and personnel were to be transferred to Circuit
           Supervisors on October 12, 1997. USDA's 1999 Budget Explanatory
           Notes for Committee on Appropriations states, "although the original
           plan was to implement the reorganization by FY 1999, a determination


USDA/OIG-A/24099-3-Hy                                          Section III, Page 11
             was made to move forward and complete the reorganization as
             quickly as practical." As a result, the reorganization went into effect
             before the transition plan was fully implemented.

             Prior to 1985, FSIS operated under an organizational structure similar
             to the one currently in place. According to an FSIS official, FSIS
             internal reviews of this structure, as well as reviews by the OIG and
             the U.S. General Accounting Office, concluded that controls could be
             more effective. Between 1985 and 1996, the responsibility for
             carrying out the requirements of Federal meat and poultry inspection
             laws for imported products was unified within one office, FSIS'
             International Programs, under a single deputy administrator. FSIS
             consolidated its import inspection program and achieved a structure
             that contributed to the efficiency of the program. The import
             inspection function was separate from all other functions, and the unit
             responsible for it had both line and policy-making authority. An OIG
             audit performed to evaluate this organizational structure (Audit
             No. 38002-4-Hy, dated March 1989) concluded that controls over the
             import inspection process had improved since a prior (1987) audit.

             An OIG audit, Audit No. 24099-01-Hy, conducted in 1996,
             recommended that as FSIS' reorganization was implemented, existing
             controls over the import meat and poultry inspection process be
             maintained. In response, FSIS indicated that the Director, Import
             Inspection Division, would ensure that accountability was in place for
             imported product and that inspection expertise was maintained. The
             response also stated that a comprehensive and detailed plan of action
             would be developed to maintain an effective import function. Based
             on our discussions with responsible FSIS officials, we found the plan
             was never developed.

             In reorganizing, FSIS separated import inspection responsibilities
             between the Offices of Management; Field Operations; Public Health
             and Science; and Policy, Program Development and Evaluation.
             Under the reorganization plan, FSIS unified some functions,
             separated others, and reduced its office network from 46 field offices
             to 17 district offices. FSIS also established a Technical Service
             Center, located in Nebraska. Although this new field structure unified
             formerly separate functions to carry out inspection and compliance
             activities, it had the effect of fragmenting import inspection activities
             and increased the need for a strong internal control structure to
             ensure effective operations. The chart on the opposite page depicts
             the primary part of FSIS' reorganized structure that affects the import
             inspection program.


Section III, Page 12                                      USDA/OIG-A/24099-3-Hy
Figure 1: FSIS Organizational Structure Related to the Import Inspection Process

                                                    Office of the Administrator




 Office of              Office of                     Office of                                  Office of Policy,
 Public Health         Management                     Field Operations                      Program Development and
 and Science                                                                                        Evaluation


  Epidemiology         Internal Control
                             Staff                                                                  International
     & Risk
                                                                                                   and Domestic
  Assessment                                                    Field Automation
                                                                                                        Policy
    Division                                                     and Information
                                                               Management Division
                                                                                                    International
  Emergency                                                                                        Policy Division
  Response
   Division
                       District                                  Technical
                                            District                                 Equivalence        Import/Export
                     Enforcement                                  Service
                                          Inspection                                     and            Policy Branch
  Microbiology        Operations                                  Center
                                          Operations                                  Planning
    Division                                                                           Branch


                                          District Offices
  Chemistry &                                   (17)
   Toxicology
    Division


    Field
   Service
    Labs
     (3)

                 We found that as a result of the reorganization, the import inspection
                 process is scattered among different entities and the operations are
                 diffused among a number of districts. The separation of functions has
                 required greater coordination between staffs, and has resulted in the
                 need for retraining inspectors and the Technical Service Center
                 foreign inspection system reviewers.       However, FSIS has not
                 developed adequate policies and procedures to facilitate this
                 coordination, and training requirements have not been fully achieved.

                 OMB Circular A-123 requires managers to ensure that appropriate
                 authority, responsibility, and accountability are defined and delegated
                 to accomplish the mission of the organization, and that an appropriate
                 organizational structure is established to effectively carry out program
                 responsibilities. While we recognize there are transition difficulties in
                 any reorganization effort, FSIS recognized the need, but did not take
                 action, to ensure that its foreign inspection process control systems

USDA/OIG-A/24099-3-Hy                                                                    Section III, Page 13
             are adequately developed, documented, and communicated to its
             staff. We conclude the findings in this report have occurred because
             FSIS did not adequately plan for the transition to the new
             organizational structure. In addition, there has been inadequate
             management oversight of the operational changes to the import
             inspection processes. As a result, a breakdown in controls that were
             designed to ensure the safety and wholesomeness of imported
             products entering the United States has occurred. Nothing came to
             our attention during this audit, however, that indicated FSIS allowed
             unsafe meat and poultry products to enter the United States.

             According to FSIS officials, the audit failed to acknowledge the
             oversight in place that is responsible for managing change to import
             policies and procedures. However, the audit report does recognize
             the roles and responsibilities of these management officials. The audit
             disclosed weaknesses in FSIS’ management control structure at
             various levels of the import inspection function after FSIS’
             reorganization. These controls include clearly defined roles and
             responsibilities, documented management reviews and approvals,
             directives/operating manuals, properly managed and maintained
             documentation, and a positive and supportive management attitude
             toward internal control. Controls over the reinspection process at U.S.
             ports of entry will be evaluated during Phase II of this audit.

                                    Conduct an in-depth assessment of the
  RECOMMENDATION NO. 1              current organizational structure to
                                    establish a system of control objectives
                                    and processes to ensure that the goals of
        import inspection process are achieved.

             Agency Response

             FSIS agrees with this recommendation. FSIS will assess the current
             organizational structure and identify import inspection controls,
             objectives and processes. The assessment will be completed by
             May 2001.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 14                                     USDA/OIG-A/24099-3-Hy
                                      Require increased management oversight
  RECOMMENDATION NO. 2                and approval of changes to import
                                      inspection operations and procedures.

           Agency Response

           FSIS believes that management oversight and approval of changes
           to import inspection operations and procedures is adequate.
           Inspection of imported meat and poultry product is controlled through
           a multi-tiered supervisory and management oversight structure.

           FSIS will prepare a summary of the management oversight functions
           and procedures. These procedures will outline FSIS’ efforts to
           strengthen management controls for all import operations. The
           consolidated written procedures will be developed by March 2001.

           OIG Position

           We accept FSIS’ management decision.

                                      Provide management control training to
  RECOMMENDATION NO. 3                agency managers.


           Agency Response

           FSIS agrees with this recommendation. FSIS believes in continuous
           education and refresher training for its managers in a number of
           areas. FSIS will make arrangements for its Imported Meat and
           Poultry Inspection managers at Headquarters, District Offices, and
           the Technical Service Center to receive additional training on
           management controls. The agency will arrange for training similar to
           the Management Accountability and Control (OMB Circular A-123)
           course offered by the Government Audit Training Institute at the
           Graduate School, USDA by December 1, 2000. FSIS will explore
           including a training module on management controls in its
           Management Leadership and Development Program, which will be
           available to all agency managers.


           OIG Position

           We accept FSIS’ management decision.


USDA/OIG-A/24099-3-Hy                                       Section III, Page 15
                                       FSIS has not conducted independent
        FINDING NO. 2                  internal control reviews of the import
                                       inspection program. According to the
    INDEPENDENT INTERNAL               Director, Internal Control Staff, few
      CONTROL REVIEWS                  resources were assigned to the staff;
  HAVE NOT BEEN CONDUCTED              consequently, FSIS relied on each branch
                                       and program area to review its own
                                       activities and determine if vulnerabilities
           in operations exist. In the absence of independent internal control
           reviews, FSIS management has reduced assurance that adequate
           controls are in place, and functioning, over the import inspection
           program. These reviews are critical since FSIS has dispersed the
           responsibilities for the import inspection program among various
           operational units.

             The Federal Manager's Financial Integrity Act requires each agency to
             evaluate the adequacy of its management controls. The correction of
             material weaknesses is to be considered in the agency's strategic
             planning, annual performance planning, and reporting processes.

             As part of FSIS' reorganization, the Internal Control Staff was
             established and placed within the Office of Management. The Internal
             Control Staff is responsible for assisting management in carrying
             out its management control responsibilities specified in OMB
             Circular A-123 and FSIS Directive 1090.1, "Management Controls."
             To fulfill these responsibilities, the staff is empowered to
             independently and objectively assess the effectiveness of the
             agency's internal control systems, provide deputy administrators and
             program managers with assessments of its effectiveness, and monitor
             correction of any identified material weakness.

             We found that the Internal Control Staff has not conducted
             independent assessments of import inspection activities to ensure that
             programs are managed effectively and comply with applicable laws
             and regulations. Each program office within FSIS has conducted its
             own assessment or evaluation of its programs to ensure compliance
             with management accountability and controls. The program offices
             responsible for the import inspection program have consistently found
             no areas of vulnerability during their own reviews, and the Internal
             Control Staff has not validated these findings.

             Standards for Internal Control in the Federal Government states, in
             part, that qualified and continuous supervision should be provided to
             ensure that internal control objectives are achieved. In addition, the


Section III, Page 16                                    USDA/OIG-A/24099-3-Hy
           "Top-to-Bottom Review" stated that FSIS' new organizational structure
           should have resulted in an improved supervisory span of control.
           However, we were unable to identify documented evidence of
           supervisory review or oversight over district office functions, the
           Technical Service Center, and the Equivalence and Planning Branch.
           According to an Office of Field Operations management official, if staff
           members are doing what they are supposed to do, then they do not
           need oversight. The Office of Field Operations has not conducted any
           reviews of the Technical Service Center and district office activity and
           assumed that personnel were doing a good job based on positive
           comments from industry and foreign governments.

           The Director of the Internal Control Staff agreed that independent
           reviews are necessary, but noted that insufficient staff precluded his
           office from performing the reviews. He also noted that during the
           reorganization, the Internal Control Staff was assigned eight staff
           members and that this has proven insufficient to complete the
           activities mandated by FSIS Directive 1090.1.

           We found, however, that some of the activities mandated by FSIS
           Directive 1090.1 are no longer required by OMB Circular A-123. FSIS'
           requirements are based on a 1986 version of the OMB circular, which
           has been superseded by a 1995 revision. The circular no longer
           requires agencies to segment themselves into assessable units,
           perform risk assessments of these units, rate the units, develop a
           5-year management control plan, and conduct evaluations of units
           rated high or medium risk. It now provides a framework for integrating
           management control assessments with other work performed by
           agency managers, auditors and evaluators. In addition, the circular
           allows agencies to determine the appropriate level of documentation
           needed to support their annual assurance statements to Congress.
           FSIS did not incorporate any of these changes in its directive on
           management controls.

           We were advised that the Internal Control Staff is in the process of
           re-engineering its internal control process. According to an FSIS
           official, a program management plan is being developed which will
           address procedures that will be used for assessing the controls and
           monitoring activities for programs within FSIS.

                                       Revise FSIS Directive 1090.1 to
  RECOMMENDATION NO. 4                 incorporate the provisions of OMB
                                       Circular A-123, Revised, "Management
                                       Accountability and Control," dated


USDA/OIG-A/24099-3-Hy                                         Section III, Page 17
             June 21, 1995, and to document specific program control objectives
             and the review procedures that will provide management reasonable
             assurance on the effectiveness of controls.

             Agency Response

             FSIS agrees with this recommendation.              FSIS has updated
             its Directive 1090.1 to incorporate the provisions of OMB
             Circular A-123, Revised, Management Accountability and Control,”
             dated June 21, 1995. The draft directive outlines a process for
             establishing program control objectives and procedures that will
             provide management reasonable assurance on the effectiveness of
             controls. The draft document has been reviewed internally and is
             currently being reviewed by the National Joint Council, an employee
             union. We expect the directive to be finalized by October 1, 2000.

             OIG Position

             We accept FSIS’ management decision.

                                    Require the FSIS Internal Control Staff to
  RECOMMENDATION NO. 5              conduct       periodic      independent
                                    assessments of FSIS' programs and
                                    operations, emphasizing those processes
        that changed in the reorganization.

             Agency Response

             FSIS agrees with the intent of this recommendation. FSIS will
             establish selection criteria for conducting periodic independent
             assessment of FSIS’ programs and organizations as appropriate. The
             Executive Steering Committee for Management Controls will identify
             and prioritize for independent assessment selected processes that
             changed during the 1997 reorganization that should be reviewed. It
             should be noted that FSIS already requires the Internal Control Staff
             (ICS), to conduct independent assessments of FSIS’ programs and
             operations. However, FSIS will direct the ICS, through guidance
             provided by the FSIS Executive Steering Committee on Management
             Controls, to conduct independent assessments of selected processes
             that changed during the 1997 reorganization. A memorandum of
             instruction to the ICS will be issued by September 1, 2000, from the
             Executive Steering Committee on Management Controls to address
             this recommendation.



Section III, Page 18                                    USDA/OIG-A/24099-3-Hy
           OIG Position

           We accept FSIS’ management decision.

                                        Report the conditions disclosed in this
  RECOMMENDATION NO. 6                  audit as material management control
                                        weaknesses in the import inspection
                                        process.

           Agency Response

           FSIS strongly disagrees with the OIG recommendation that the issues
           outlined in this audit report constitute a material management control
           weakness. They acknowledge the need to strengthen management
           controls and procedures, but they do not believe that the findings of
           this audit represent a reportable material management control
           weakness. Although FSIS agrees with most of the suggested
           management controls improvements in this audit, they do not believe
           they constitute a reportable material weakness of the import
           inspection process. FSIS will address opportunities for strengthening
           the management controls identified in this audit report and report them
           in accordance with the Agency’s assessment of OMB Circular A-123
           requirements.

           OIG Position

           OIG disagrees with FSIS’ position that the findings in this report are
           not material control weaknesses. Basic control activities, such as
           documented policies, procedures, supervisory reviews and approvals,
           delegated responsibilities, and clear lines of authority were lacking in
           FSIS’ operations. In the absence of the in-depth assessment of
           controls agreed to in response to Recommendation No. 1, FSIS
           should report the findings in this audit as material control weaknesses
           in the import inspection operations.


                                        Key features of the "Top-to-Bottom
        FINDING NO. 3                   Review" proposed organizational model
                                        included highly integrated organizational
    COORDINATION AMONG                  components. We found, however, that
   RESPONSIBLE PERSONNEL                there was a lack of effective coordination
   HAS NOT BEEN EFFECTIVE               between the Office of Policy, Program
                                        Development and Evaluation and the
                                        Office of Field Operations and clear


USDA/OIG-A/24099-3-Hy                                         Section III, Page 19
                     separation of specific foreign system review (audit) tasks related to the
                     equivalency determination process. This occurred, in part, due to
                     unclear lines of authority and training goals that had not been
                     achieved. As a result, there is reduced assurance that controls over
                     the import inspection program have been maintained.

                     a. Roles and Responsibilities Overlap and are not Clearly Defined

                         The "Top-to-Bottom Review" report stated, in part, that although
                         the current organizational structure2 may appear to be adequate,
                         the roles and responsibilities set out in agency functional
                         statements have eroded over time. It also made reference to a
                         duplication of effort and confusion about relative roles and
                         responsibilities between specific staffs. We found this situation has
                         occurred between the Technical Service Center and the
                         Equivalence and Planning Branch staffs. In the absence of
                         proactive management over the Technical Service Center and the
                         Equivalence and Planning Branch, the two units created a working
                         relationship, with the Equivalence and Planning Branch assuming
                         a greater role in the equivalency verification process than specified
                         in its functional statement.

                         According to a paper prepared by FSIS entitled Importing Meat and
                         Poultry to the United States, a country must apply for a
                         determination of equivalency before initially exporting meat or
                         poultry to the United States. A two step evaluation consisting of a
                         document review and an onsite equivalency verification review is
                         conducted to determine that the country’s sanitary measures,
                         oversight, and enforcement are equivalent to the U.S. system. The
                         Equivalence and Planning Branch maintains control over the
                         document review process and the Technical Service Center
                         reviewers conduct the onsite equivalency verification reviews.
                         These reviews and inspection activities form the basis of FSIS’
                         determinations of whether a country’s inspection systems are
                         equivalent to the United States.

                         The Standards for Internal Controls in the Federal Government
                         states that key duties and responsibilities need to be divided or
                         segregated among different people to reduce the risk of error.
                         Agency functional statements assign the Technical Service Center
                         responsibility for: interacting on a regular basis with other staffs to
                         stay abreast of current issues, trends, and problems encountered,
                         and integrating this information into onsite reviews of country
2
    The organizational structure in place prior to the 1997 reorganization.


Section III, Page 20                                                          USDA/OIG-A/24099-3-Hy
                      inspection systems;      designing operating systems, methods,
                      guidelines, and processes for reviewing foreign, state, and
                      domestic programs and conducting targeted program reviews of
                      these operations; and, reviewing foreign programs to ensure
                      compliance with equivalency requirements. Agency functional
                      statements assign the Equivalence and Planning Branch
                      responsibility for developing methods of review for foreign
                      inspection systems and specifies that the Equivalence and
                      Planning Branch is to maintain liaison with the Technical Service
                      Center. However, we found that the Equivalence and Planning
                      Branch does not routinely provide Technical Service Center
                      reviewers with documentation provided by foreign countries to
                      support their inspection programs prior to the Technical Service
                      Center’s onsite equivalency reviews. According to FSIS officials,
                      copies of all incoming documents from foreign countries that export
                      to the United States are routinely sent to the Director of the
                      Technical Service Center Review Staff. However, we did not
                      identify this type of documentation during our review of files
                      maintained at the Technical Service Center. FSIS provided an
                      April 13, 2000, document which stated, “Although EPB does not
                      have written procedures for transmitting information to the TSC, the
                      review staff now routinely reviews all documents received by IPD
                      concerning the audit countries.”

                      The Equivalence and Planning Branch has assumed a greater role
                      in the foreign equivalence review process than outlined in
                      functional statements and written documents prepared by FSIS.
                      This expanded role includes reviewing and editing the foreign
                      equivalency review (audit 3) reports. However, the functional
                      statements appear to provide for a separation of duties between
                      the documentation review and the onsite verification review and
                      subsequent audit report.

                      According to an FSIS paper entitled, “FSIS Process For Evaluating
                      The Equivalence of Foreign Meat And Poultry Food Regulatory
                      Systems,” dated March 1999, equivalence decisions based on
                      foreign food regulatory system documentation of specific sanitary
                      measures are subsequently verified by onsite audits. However, our
                      reviews of country files maintained at the Technical Service Center
                      disclosed limited information on the Equivalence and Planning
                      Branch document reviews of foreign food regulatory systems that
                      need to be verified as part of the onsite reviews. The Equivalence

3
    While FSIS refers to these equivalency reviews as audits, they are not conducted in accordance with
    Government Auditing Standards.


USDA/OIG-A/24099-3-Hy                                                         Section III, Page 21
                and Planning Branch instituted a pre-audit telephone conference
                with the Technical Service Center reviewers to review information
                compiled by Equivalence and Planning Branch program analysts
                concerning prior audit issues, establishments known to have
                problems, port-of-entry violations, consumer complaints, and other
                matters. Equivalence and Planning Branch program analysts
                obtain this information from the Import/Export Policy Branch, the
                Automated Import Information System, country files, and other
                resources and divisions throughout the agency. The Technical
                Service Center reviewers are to use this information as a basis for
                planning their foreign equivalency reviews.                 However,
                documentation provided by the foreign country was not forwarded
                to the Technical Center Reviewers in order to ensure that all
                information submitted by the foreign country is verified during the
                onsite review. According to FSIS officials, the Technical Service
                Center reviewers can request that all documentation in the
                International Policy Division country file be sent to them.

                Agency functional statements state that the Technical Service
                Center provides feedback on the results of its foreign inspection
                reviews to agency managers and the Equivalence and Planning
                Branch. The Technical Service Center review staff prepares a draft
                audit report and sends it to the Equivalence and Planning Branch
                for review. According to Equivalence and Planning Branch
                officials, the Technical Service Center reviewers are not to make
                recommendations because they do not determine equivalency.
                Recommendations for corrective actions are made by the
                Equivalence and Planning Branch, with input from the Technical
                Service Center. The Equivalence and Planning Branch staff
                reviews the draft reports and makes changes, primarily
                grammatical but sometimes substantive. In some reports we
                reviewed, the Equivalence and Planning Branch inserted
                recommendations and conclusions concerning system failures and
                corrective actions taken by foreign country officials. According to
                the Director of the Technical Service Center review staff, the
                Equivalence and Planning Branch is involved in the report review
                process due to a lack of staff, namely an Assistant Director of the
                review staff. He added that the reviewers are not obligated to
                make substantive changes, but will discuss them with the
                Equivalence and Planning Branch and reach an agreement. If the
                changes are substantive, the Equivalence and Planning Branch
                may request to see the report after revisions have been made.




Section III, Page 22                                     USDA/OIG-A/24099-3-Hy
             In response to our concerns over the Equivalence and Planning
             Branch’s role in the report process, FSIS officials provided an
             April 3, 2000, document which stated that the purpose of the
             Equivalence and Planning Branch review of the report is to ensure
             that all relevant information that the reviewer collected is presented
             in the report.        While reviewing the report for substantive
             information, editorial comments are made for the purpose of
             clarifying the findings. Reviewers are not asked to change the
             facts. Rather, they may be asked to clarify facts so that the
             International Policy Division, in making equivalence determinations,
             can use the report.

             The Equivalence and Planning Branch also maintains control over
             the audit resolution process. The Equivalence and Planning
             Branch staff sends letters to the foreign countries and receives
             their corrective action plans. Although the Equivalence and
             Planning Branch should share this information with the Technical
             Service Center as part of the resolution process, we found that the
             Technical Service Center staff was not always kept informed of
             agreements reached. For example, the Equivalence and Planning
             Branch granted a country flexibility in species testing, but the
             Technical Service Center reviewers were not told this prior to the
             onsite equivalency review.

             The Equivalence and Planning Branch program analysts are to use
             information from the Technical Service Center audit reports to
             make equivalency determinations. Based on functional statements
             which require the Technical Service Center to provide feedback on
             the results of foreign inspection reviews to agency managers, the
             Technical Service Center audits should represent independent
             research upon which the Equivalence and Planning Branch can
             base its conclusions of equivalency or non-equivalency. However,
             FSIS officials believe that the issue of independence is off base,
             and that by organizational design the two units work closely on
             audits.

             The position of FSIS officials is that the OIG audit should focus on
             outcome, not how FSIS has decided to manage this function. FSIS
             views the roles and working relationship between the Technical
             Service Center and the Equivalence and Planning Branch as very
             positive and harmonious, and added that the Director of the
             Techncial Service Center Review Staff and the Chief of the
             Equivalence Branch are in daily contact regarding equivalence
             determinations.


USDA/OIG-A/24099-3-Hy                                         Section III, Page 23
                The Equivalence and Planning Branch must also coordinate with
                the Office of Field Operations’ Field Automation and Information
                Management Division to ensure that information about delisted
                establishments is updated in FSIS' database, the Automated Import
                Information System. We found that the Equivalence and Planning
                Branch has not always properly coordinated with the Field
                Automation and Information Management Division and that some
                information in the Automated Import Information System on delisted
                establishments is inaccurate and not timely updated (see Finding
                Nos. 6 and 7).

                This audit has raised a number of concerns regarding the
                coordination among several units within FSIS and identified
                examples of breakdowns in several processes. At the time we
                visited the Technical Service Center, the country files contained
                limited information received by the Equivalence and Planning
                Branch from foreign inspection systems.               Also, undated
                administrative processing procedures developed by the
                Equivalence and Planning Branch did not include the Technical
                Service Center for distribution of incoming documents from foreign
                inspection systems.          Our discussions with staff from the
                Equivalence and Planning Branch, and the Field Automation and
                Information Management Division disclosed confusion as to roles
                and responsibilities. FSIS needs to revisit its functional statements
                and develop procedures to clearly define the roles and
                responsibilities of the staffs involved.

             b. Training Plan Not Fully Implemented

                Standards for Internal Controls in Federal Government requires
                management to ensure that skill needs are continually assessed
                and that the organization is able to obtain a workforce that has the
                required skills that match those necessary to achieve organizational
                goals. According to recommendations outlined in the "Top-to-
                Bottom Review," FSIS personnel must be at least as
                knowledgeable as the regulated industry. Therefore, training was
                critical. Even though FSIS assigned new duties to personnel under
                its reorganized structure, it did not fully implement a training
                program to ensure that employees were proficient in those duties.

                Under the current organizational structure, inspectors who formerly
                performed only domestic inspections may be required to perform
                import inspections. Also, import inspectors may be supervised by
                circuit supervisors who are only knowledgeable of domestic


Section III, Page 24                                      USDA/OIG-A/24099-3-Hy
              inspections. Former import supervisors now serve as "import
              coordinators" to provide guidance to import reinspection activities in
              the district to which they are assigned. As previously discussed, an
              Import District Transition Plan was developed to ensure that district
              office personnel, circuit supervisors, and domestic inspectors were
              trained in import inspection activities during the transition to the new
              structure. However, FSIS officials were unable to provide adequate
              documentation that all personnel were trained in areas related to
              their current job responsibilities.

                                      Review the roles and responsibilities of
   RECOMMENDATION NO. 7               personnel involved in the equivalence
                                      determination process, the onsite review
                                      process, and the input of data to update
        the Automated Import Information System, and define more
        specifically the authority and responsibilities of those units.

            Agency Response

            FSIS agrees to review the roles and responsibilities of personnel
            involved in the equivalence determination process, the onsite review
            process, and the input of data to update the Automated Import
            Information System (AIIS).

            By October 1, 2000, FSIS will review and revise as necessary the
            functional statements of the International Policy Division (IPD) where
            joint and separate functional responsibilities exist in onsite
            equivalence audits, audit reports, and follow-up on equivalence issues
            raised during onsite audits.

            OIG Position

            We accept FSIS’ management decision.


                                    Prior to the onsite review, ensure that the
  RECOMMENDATION NO. 8              Technical Service Center reviewers are
                                    provided with all information necessary to
                                    verify data provided by foreign countries
        for equivalence determinations.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 25
             Agency Response

             FSIS agrees to develop formal procedures that will continue to ensure
             that the TSC is provided all information necessary for the reviewers to
             verify data provided by foreign countries during equivalence
             determinations. The procedures will be completed in December 2000.

             OIG Position

             We accept FSIS’ management decision.

                                         Provide training to all inspectors
  RECOMMENDATION NO. 9                   responsible for conducting inspections of
                                         imported products.

             Agency Response

             FSIS is currently developing updated import training for field
             inspectors who conduct import inspection activities. Training is
             scheduled to begin in FY 2001. This training plan is projected to
             include on-the-job training, pre-classroom CD-ROM’s that cover basic
             import inspection procedures, and a formal training session at various
             U.S. ports of entry.       The training plan will be completed in
             December 2000.

             OIG Position

             We accept FSIS’ management decision.

                                        Processes       and     procedures     for
         FINDING NO. 4                  determining     equivalency    were    not
                                        detailed enough to ensure that all aspects
  WRITTEN PROCEDURES WERE               of a country’s regulatory system would be
   NOT ADEQUATE TO ENSURE               reviewed in accordance with applicable
       COMPLIANCE WITH                  regulations. We also found that agency
  REGULATORY REQUIREMENTS               procedures were not always functioning
      OR TO DOCUMENT THE                as represented in documents provided
   PROCESS FOR DETERMINING              during our review (see Chapters 2 and 3).
     COUNTRY EQUIVALENCY                 We obtained documents (some of which
                                        were undated or in draft form), which
                                        outlined procedures for performing
            specific tasks related to the Equivalence and Planning Branch
            operations. Based on our review of these documents and discussions
            with FSIS officials, we determined that several of these procedures


Section III, Page 26                                     USDA/OIG-A/24099-3-Hy
           were developed or revised on an "as-needed" basis without being
           subject to any formal review or approval process. In addition, no
           reviews were performed to determine the adequacy of the procedures.
           For example, procedures for reviewing documents submitted for
           equivalency determinations were revised during the course of our
           audit as a result of questions we raised about the process.

           The "Top-to-Bottom Review" prepared for the pending reorganization
           recognized that "FSIS lacks a clearly defined and consistent approach
           to regulation development and is in need of a revamped process for
           carrying out this critical function. FSIS has developed regulations in a
           piecemeal fashion and issued policy memos or directives to avoid
           rulemaking. Not only does this approach result in implementation
           problems, but there is the risk of legal challenges when the agency
           publishes policy without rulemaking and tries to enforce a requirement
           that is not in the regulations." The "Top-to-Bottom Review" report
           recommended that a clearly established regulatory agenda process
           be created which would rely on subject-matter experts for input about
           substantive issues throughout the regulation development process.
           We were provided with an April 13, 2000, paper prepared by FSIS
           entitled: The Management Review of Equivalence Process, which
           outlined management’s involvement in the equivalence review
           process; however, there was no documented evidence to support that
           these activities occurred.

           a. Guidelines for Determining Equivalency Were Not Adequate

              According to OMB Circular No. A-123, management controls
              include the methods and procedures adopted by management to
              ensure that its goals are met. Although FSIS developed basic
              guidelines for determining the equivalency status of a country's
              food inspection system, those guidelines were not detailed enough
              to ensure that required aspects of a country's regulatory system
              would be reviewed. To determine equivalency, Equivalence and
              Planning Branch program analysts must review the foreign
              government's performance standards and determine if those
              standards include implementation of a HACCP and pathogen
              reduction program, which includes SSOP, Salmonella testing,
              and E. coli testing. To assist the program analysts in making these
              determinations, procedures consisting only of a one-page
              document for each type of review were prepared. The guidelines
              described each process in very general language, and did not
              adequately address the processes needed to ensure compliance
              with federal requirements. For example, the guideline for E. coli


USDA/OIG-A/24099-3-Hy                                         Section III, Page 27
                        did not include an evaluation to determine whether the foreign
                        inspection system programs maintained a process for ensuring
                        that establishments prepare criteria for evaluating test results. The
                        guidelines for HACCP did not include procedures for evaluating
                        foreign inspection systems’ process for ensuring that
                        establishments validate the adequacy of HACCP plans at least
                        annually and whenever changes occur that could affect the plan.

                    b. FSIS Lacks Procedures for Terminating a Foreign Country From
                       Participating in the Import Inspection Program

                        FSIS actions were inconsistent when the agency handled
                        countries that failed to timely submit required documents for
                        equivalency determinations, or that had not implemented food
                        regulatory systems as outlined in documents submitted for
                        equivalency determinations. Regulations 4 outline conditions under
                        which a foreign establishment's eligibility to import product to the
                        United States may be terminated. However, FSIS has not
                        developed written procedures for enforcing this regulation. There
                        are no procedures for suspending the eligibility of exporting
                        countries that do not provide sufficient documentation to support
                        their continued compliance with U.S. equivalency standards, or are
                        found to be in noncompliance based on the results of an onsite
                        equivalency review.

                        An April 3, 2000, response prepared by FSIS to our draft report
                        stated, in part, that it is not feasible to develop written procedures
                        for terminating the eligibility of foreign establishments or an entire
                        country’s ability to export. Each situation presents itself with
                        different factual patterns. Therefore, written procedures would
                        have to be so general and vague, as to serve no useful purpose
                        given that these situations require case by case assessment.
                        However, it is our position that in the absence of written guidelines,
                        FSIS can not be assured that each country is given due process
                        and equal treatment.

                        According to FSIS' undated document on importing meat and
                        poultry, if a country does not continue to operate an inspection
                        system equivalent to the U.S. system, it is removed from the list
                        of countries eligible to export to the United States. Loss of
                        eligibility can also occur when FSIS is unable to get necessary
                        information about a country's inspection system. Another undated
                        document entitled, "Pathogen Reduction/HACCP Equivalence
4
    Title 9 CFR, Part 327.2, dated January 1, 1998.


Section III, Page 28                                              USDA/OIG-A/24099-3-Hy
             Determinations," states, "three circumstances could, however,
             result in trade suspension. One is where an emergency sanitary
             measure is not implemented to address a hazard that is so severe
             that no product can enter the marketplace from a foreign
             establishment until the control is in place. The second is where an
             exporting country does not provide satisfactory documentary
             evidence of an equivalent sanitary measure. The third is where a
             system audit reveals that an exporting country is not implementing
             a sanitary measure in the manner that FSIS initially determined to
             be equivalent."

             Based on our concerns over the equivalency determination
             process, the Equivalence and Planning Branch prepared a
             document which stated, in part, that, "in some cases, where a
             country failed to respond to requests for information, a draft cable
             was prepared which showed the country that FSIS would be
             forced to begin regulatory proceedings, in the form of an official
             action, to remove the country from the list of countries eligible to
             export to the United States." It also stated, "the process of
             initiating an official action against the importation of product from a
             particular country involves an extensive preparation and
             presentation of information to brief top executives within FSIS and
             USDA. Local Foreign Agricultural Service officials, agricultural
             attaches, U.S. Trade Representative officials, and the State
             Department are notified of the content of the cable or letter
             because of potentially serious U.S. trade considerations and
             political implications."

             During our review of files maintained for each country eligible to
             export meat and poultry products to the United States, we noted
             that one country was immediately suspended from participation in
             the import inspection program when violations were found, while
             others with apparently similar violations continued under
             equivalency status without any formal deadline for corrective
             action. We noted this particularly in the cases of Country A and
             Country B.

             Country A was suspended from participation in the import
             inspection program because it had not responded to FSIS' request
             for additional information for both SSOP implementation and
             E. coli testing. The Technical Service Center annual onsite
             equivalency reviews also revealed numerous deficiencies in the
             slaughter operations of three slaughter establishments in that
             country. These deficiencies included feces, hair, paint, dirt, and


USDA/OIG-A/24099-3-Hy                                         Section III, Page 29
                  other contaminants on the carcasses waiting to be deboned or
                  placed in coolers. A fourth establishment showed evidence of past
                  serious unsanitary conditions in its canning operation. None of the
                  four establishments implemented an E. coli testing program.

                  While the conditions in Country A plants may indeed merit
                  suspension, we noted that FSIS found several deficiencies in
                  Country B, but did not suspend that country.              An FSIS
                  Microbiology Division document review disclosed that Country B
                  was not complying with HACCP and pathogen reduction
                  requirements. The review noted that Country B was not taking an
                  appropriate sample size, did not use appropriate sampling
                  techniques, and did not implement a formal Salmonella
                  performance standard testing program. Like Country A, Country B
                  had submitted insufficient data on its implementation of SSOP and
                  E. coli testing, but in the case of Country B, FSIS continuously
                  asked for additional information without imposing a deadline for its
                  receipt. Those attempts continued for over a year while the
                  country continued to export products into the United States. On
                  one occasion, 7 months elapsed between the time FSIS requested
                  information (February 1997) and the time Country B responded
                  (September 1997). The data submitted was still incomplete.

                  FSIS and Country B reached an agreement that Country B would
                  modify its program in relation to test site and test area, and as a
                  result of this agreement, in November 1998, FSIS notified
                  Country B that its E. coli testing was compatible with legislative
                  requirements of equivalency.        However, in contrast to the
                  agreement, the onsite verification review conducted in March 1999
                  revealed numerous variances or deficiencies in Country B's testing
                  programs that did not support documentation previously submitted
                  to the Equivalence and Planning Branch. The onsite equivalency
                  review found inadequate monitoring of SSOP and HACCP
                  implementation, deviations or deficiencies in the Salmonella
                  testing programs and in carcass sampling techniques, and
                  imported meat products were not tested or included in the national
                  residue monitoring program.

             c.   Procedures Used for Approving Alternative Inspection Methods
                  Were Not Established

                  FSIS did not establish procedures for evaluating and documenting
                  the assessment of alternative food safety inspection methods.
                  Prior to 1995 when the United States implemented provisions of


Section III, Page 30                                       USDA/OIG-A/24099-3-Hy
             the GATT Treaty, including the Sanitary Phytosanitary Agreement,
             all countries, which exported meat and poultry to the United
             States, were required to have inspection systems equal to the U.S.
             system. Subsequent to GATT, Congress changed the inspection
             laws to accept alternative, but equivalent inspection standards and
             procedures.

             FSIS' process for evaluating different sanitary measures requires
             the exporting and importing countries to cooperate in a series of
             steps that meet mutual international obligations. The steps that
             countries choose depend on circumstances and trading
             experience between the two nations. Where sanitary measures
             differ, the food safety objective may need to be further explained
             by the importing country.

             We identified four countries (Country C, Country E, Country D, and
             Country B) that requested to use alternative E. coli testing
             methods. Initially, FSIS determined that the four countries'
             alternative E. coli testing methods were not equivalent.
             Consequently, Country C decided to implement the same method
             used in the United States; however, the other three countries
             continued to seek approval for their alternative methods. During
             our evaluation of FSIS' process for reviewing these alternative
             systems, we could not determine what procedures FSIS used to
             approve an alternative method. Without a procedure in place,
             there is reduced assurance that FSIS' evaluations of alternative
             methods will be consistent and in accordance with U.S. standards.

             An FSIS official in the Microbiology Division stated in a letter
             dated May 13, 1998, that during the review of Country D’s
             submission of its microbiological testing program, there was no
             policy [alternative methods] in place for E. coli testing. Therefore,
             the microbiologist prepared a list of differences between the
             microbiological testing program in Country D and the generic
             E. coli testing program outlined in the pathogen reduction/HACCP
             final rule.      On April 12, 2000, we were provided with
             documentation which outlined FSIS’ Proposal For Equivalency
             Study, dated January 11, 1999, and a March 7, 2000, letter from
             FSIS to Country D’s Chief Veterinary Officer concerning the
             equivalency of its Enterobacteriaceae testing program. However,
             these documents were not included as part of the country file
             during the time of our field work, and do not represent a policy for
             evaluating alternative methods for E. coli testing.



USDA/OIG-A/24099-3-Hy                                        Section III, Page 31
                 According to documentation provided to FSIS from Country E in
                 1997, Country E implemented the provisions of the final rule for
                 E. coli testing at cattle slaughter facilities but limited its program for
                 Salmonella testing on swine. It also used different sampling
                 techniques and analytical methods. In a May 22, 1997, cable,
                 FSIS asked Country E to provide scientific documentation that
                 demonstrated the equivalency of these alternative techniques.
                 Based on the onsite equivalency review, conducted between
                 November 14, 1997, and December 18, 1997, the audit report for
                 Country E, dated March 3, 1998, disclosed that sampling
                 procedures, randomization, and analytical methods did not
                 conform to U.S. requirements. In addition, pre-operational and
                 operational SSOP's and inspection controls were not effective in
                 most establishments reviewed.

                 A telefax from Country E to FSIS, dated March 27, 1998, included
                 the raw data on the results of a study comparing the U.S. sponge
                 technique for E. coli testing with Country E’s gauze-tampon
                 technique. We did not find documentation to show the analysis of
                 this information. On April 12, 2000, we were provided with a
                 written summary of an August 25, 1998, teleconference between
                 FSIS and Country E’s meat inspection officials to discuss
                 deficiencies found during the 1997 onsite audit, and to address
                 specific equivalence issues regarding Country E’s E. coli testing
                 program. The summary stated, in part, that International Policy
                 and Development (IDP) presented a draft cable that determined
                 Country E’s E. coli testing program to be equivalent, provided they
                 use statistical process control techniques to evaluate test results
                 when using a method of sample collection other than the excision
                 method. IDP asked the inspection officials to respond to the draft
                 conditional cable by early next week (i.e., by September 1, 1998).
                 In addition, the Country E officials agreed to address variances in
                 their E. coli contamination controls.

                 We were also provided with a copy of a September 3, 1998, letter
                 from FSIS to Country E’s Veterinary and Food Administration that
                 summarized prior discussions concerning deficiencies noted
                 during the 1997 audit, and corrective actions taken by Country E.
                 The letter included a statement that Country E officials agreed to
                 address variances in their E. coli testing program regarding
                 random sampling procedures, process control charting, and E. coli
                 contamination controls, and a suggestion to reconvene to confirm
                 upcoming corrective actions regarding issues not fully resolved.
                 However, we were not provided with documentation to support a


Section III, Page 32                                         USDA/OIG-A/24099-3-Hy
              subsequent meeting between FSIS and Country E officials to
              confirm corrective actions regarding issues not fully resolved.
              Also, a December 9, 1998, cable from FSIS to Country E stated
              that its E. coli testing program is "equivalent" based on its
              agreement to use statistical process control techniques to evaluate
              test results when using the gauze-tampon method of sample
              collection. However, we were unable to obtain documentation of
              information provided by Country E officials, and confirmation of
              agreements reached, or a subsequent analysis conducted by the
              Microbiology division to determine the equivalence of Country E’s
              gauze-tampon technique to the U.S. sponge technique for E. coli
              testing.

              Country B’s file contained correspondence between FSIS and
              Country B from December 1996 to February 1999 pertaining to
              Country B's alternative proposal for conducting E. coli testing. This
              alternative E. coli testing system was found "equivalent" by FSIS
              as documented in a November 12, 1998, cable to Country B.
              Even though we were provided with documents dated from
              October 1997 to June 1998 to support subject-matter experts’
              reviews of Country B’s submissions, the process for determining
              equivalency did not provide adequate documentation to conclude
              that Country B’s alternative E. coli testing system was equivalent.

              Detailed operational procedures are needed to ensure that
              equivalency determinations are made in accordance with
              regulations and that the critical areas in the five risk areas are
              addressed satisfactorily with respect to standards, activities,
              resources, and enforcement. During the course of our review, the
              Assistant Deputy Administrator, Office of Policy, Program
              Development and Evaluation, held meetings with the Equivalence
              and Planning Branch staff in order to conduct a comprehensive
              analysis of the documentation review process, along with a review
              of equivalency determinations previously rendered for specific
              countries. If this process continues, we view this as a positive
              step in improving the adequacy and accountability of the
              Equivalence and Planning Branch's equivalency determination
              process.

                                   With the help of technical subject-matter
 RECOMMENDATION NO. 10             experts,    develop    and    implement
                                   comprehensive guidelines as a means of
                                   ensuring propriety and consistency in
       decisions involving equivalency determinations.


USDA/OIG-A/24099-3-Hy                                         Section III, Page 33
             Agency Response

             FSIS agrees to develop comprehensive written guidelines for
             equivalence determinations by January 2001. FSIS had developed
             general guidelines to ensure that the foreign governments had
             addressed all the components of the PR/HACCP requirements.
             These guidelines were not the only documents used to review foreign
             country submissions.

             OIG Position

             We accept FSIS’ management decision.

                                 Develop written criteria and procedures
 RECOMMENDATION NO. 11           for suspending the eligibility of exporting
                                 countries that do not provide sufficient
                                 documentation to support their continuing
       compliance with U.S. equivalency standards or are found to be in
       noncompliance based on the results of an onsite equivalency review.

             Agency Response

             FSIS agrees with this recommendation. FSIS regulations, 9 CFR
             327.2, delineate criteria for both initially determining the eligibility of a
             foreign country to import products into the United States and for
             withdrawing a foreign country’s eligibility to import. FSIS will
             consolidate this requirement into formal procedures and guidelines by
             March 2001.

             OIG Position

             We accept FSIS’ management decision.

                                Develop written procedures which ensure
 RECOMMENDATION NO. 12          comprehensive evaluations of foreign
                                countries' alternative import inspection
                                methods, and require the analysis of
       these systems be documented, as well as the decisions reached.

             Agency Response

             FSIS agrees with this recommendation. Consolidated written
             procedures will be developed by March 2001 to document


Section III, Page 34                                         USDA/OIG-A/24099-3-Hy
           equivalence decisions regarding alternative import inspection
           methods. Effective July 1, 2000, new equivalence decision files will
           document: 1) All FSIS correspondence with foreign countries; 2) All
           foreign country submissions (translated and in the originating
           language); 3) Summary IPD reviews of submissions; 4) Summary of
           all meetings and teleconferences with foreign officials; 5) Summary
           of all reviews by subject-matter experts; 6) Documentation of
           equivalence criteria; 7) Summary of all FSIS management formal
           reviews and approvals; and 8) Decision memorandum of the
           equivalence determinations.

           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                      Section III, Page 35
Section III, Page 36   USDA/OIG-A/24099-3-Hy
                 THE REINSPECTION PROCESS DID NOT ENSURE
                 THAT INELIGIBLE IMPORTERS WERE
 CHAPTER 2       PROPERLY IDENTIFIED AND THAT RECOGNIZED
                 PATHOGEN VIOLATIONS WERE RESPONDED TO
                 PROMPTLY

           FSIS did not adequately control its resources to ensure that foreign
           countries importing meat and poultry products to the United States
           were eligible to do so. Residue test plans and eligibility certifications
           for foreign establishments were not always obtained and analyzed;
           those that were obtained were not posted to the Automated Import
           Information System in a timely manner. The Automated Import
           Information System also did not timely reflect the results of laboratory
           analyses performed during reinspections. Under these conditions,
           FSIS could not ensure that information concerning foreign imports
           was accurate and was available to the appropriate officials for action
           in a timely manner. For example, 7 establishments from 4 foreign
           countries shipped 4,625,363 pounds of meat and poultry products and
           presented them for reinspection even though the establishments were
           delisted (i.e., removed from the list of approved importers). This
           included 625,582 pounds of frozen cooked beef from an
           establishment that was barred from sending products because of
           Listeria violations. Discrepancies in documentation and summary
           information provided by FSIS raises questions about the conclusion of
           FSIS officials that the shipments were certified by foreign
           governments before the establishments were delisted. Deficiencies in
           FSIS' certification and delistment activities occurred largely as a result
           of unclear or nonexistent procedures (see Finding No. 1). FSIS
           officials stated that foreign countries are not required to provide
           information about the dates that products are produced. Therefore,
           we were unable to determine if foreign establishments produced
           products that were presented for reinspection during their delistment
           period. Nothing came to our attention during this audit, however, to
           indicate that FSIS allowed unsafe product to enter the United States.

           Under FSIS' reinspection process, imported meat and poultry products
           from countries with equivalent status are allowed into the United
           States with sample testing at ports of entry. The test results are
           posted in the Automated Import Information System. In addition, the
           Automated Import Information System should include delistment
           information as a result of onsite equivalency reviews, as well as
           establishments certified/decertified by foreign countries as meeting
           U.S. inspection program standards.         These elements form a

USDA/OIG-A/24099-3-Hy                                          Section III, Page 37
                    compliance history and the basis for assigning future inspection levels
                    for products shipped to the United States from these establishments.

                    Foreign countries and establishments that have a history of
                    noncompliance are delisted.        The Office of Policy, Program
                    Development and Evaluation is primarily responsible for ensuring that
                    the foreign countries provide information about delistment and for
                    promptly forwarding that information to the Field Automation and
                    Information Management Division for timely updating of the
                    Automated Import Information System. The Automated Import
                    Information System is FSIS' primary means of ensuring that products
                    from delisted establishments are refused entry.

                                            FSIS has no clear process for entering
           FINDING NO. 5                    the results of laboratory tests into the
                                            Automated Import Information System.
     INCONSISTENT REPORTING OF              The Import Inspectors Manual (manual)
      LABORATORY RESULTS WAS                does not provide adequate guidance on
    INEFFICIENT AND POTENTIALLY             who   is responsible for entering the
            ERROR-PRONE                     information. In practice, the manner in
                                            which the results are processed and the
                                            persons responsible for processing those
              results vary with the type of test conducted. We also found that
              despite the importance of the laboratory results, neither the Technical
              Service Center nor the Field Automation and Information Management
              Division officials have established a supervisory review system for
              ensuring that the results are promptly and accurately entered into the
              Automated Import Information System. This lack of consistency could
              jeopardize the integrity of the Automated Import Information System
              data base and its ability to make appropriate reinspection
              assignments.

                    Regulations 5 state that the computerized Automated Import
                    Information System shall be consulted for reinspection instructions.
                    The Automated Import Information System will assign reinspection
                    levels and procedures based on established sampling plans and
                    established product and plant history.

                    When a shipment is ready to be reinspected by FSIS, the Automated
                    Import Information System will generate an inspection assignment
                    based solely on the compliance history of the establishment and the
                    foreign country for the specific product. The Automated Import
                    Information System records the results of the inspection, and can
5
    Title 9 CFR, Part 327.6 (a) (3), dated January 1, 1998.


Section III, Page 38                                            USDA/OIG-A/24099-3-Hy
           generate reports based upon the results.              The inspection
           assignments could include the following laboratory testing programs:
           residue, microbiological (Staphylococcal aureus enterotoxin,
           Salmonella, Escherichia coli, and Listeria), abnormal containers, food
           chemical, etc.

           Instructions for entering laboratory test results into the Automated
           Import Information System are outlined in the laboratory sampling
           section of the manual, dated September 30, 1998. We found that
           procedures outlined in the manual do not reflect what is actually
           occurring. For example, the manual indicates that import coordinators
           are responsible for entering the positive (failure) results of various
           microbiological tests. In reality, these results are entered by Technical
           Service Center staff officers, who explained that they assumed this
           responsibility after the manual was issued. They further explained that
           the manual had not been revised to reflect these procedural changes
           because of plans to convert the manual to an FSIS Directive.
           Although Technical Service Center officials claimed that the
           Automated Import Information System is promptly updated to record
           laboratory test results, copies of the failure notices are not maintained
           at the Technical Service Center to document the reasons for, and the
           timeliness of their actions. Furthermore, Technical Service Center
           management has not instituted a system for ensuring that Technical
           Service Center staff are timely and accurately entering the test results
           into the Automated Import Information System.

           The manual also states that the Field Automation and Information
           Management Division is responsible for entering both positive and
           negative residue test results into the Automated Import Information
           System. We learned that, in this case, the results take a circuitous
           route before they reach the Field Automation and Information
           Management Division. Positive results are conveyed to the Technical
           Service Center for referral to the Field Automation and Information
           Management Division and entry into the Automated Import Information
           System, while negative results are entered by the laboratories into the
           Microbiological and Residue Computer Information System. Because
           the Microbiological and Residue Computer Information System does
           not interface with the Automated Import Information System, the Field
           Automation and Information Management Division needs to download
           the results from the       Microbiological and Residue Computer
           Information System into the Automated Import Information System.
           The timeliness of processing both negative and positive results is
           critical. The Automated Import Information System should reflect the
           most current information because inspection assignments are being


USDA/OIG-A/24099-3-Hy                                          Section III, Page 39
             made for subsequent reinspections. Nevertheless, Field Automation
             and Information Management Division officials have not established a
             supervisory review system to ensure that all procedures are
             completed and that entries are made in a timely and accurate manner.

             We concluded that the current system with its numerous processes for
             entering the various types of laboratory results (such as
             microbiological and residue test results) into the Automated Import
             Information System is prone to error and should be streamlined.

             During our review, we learned that inspectors are responsible for
             selecting the appropriate samples and performing the tests assigned
             by the Automated Import Information System for products shipped
             from foreign establishments. The inspectors are also responsible for
             entering results for some test programs along with other types of data
             relating to the inspection process into the Automated Import
             Information System.       Circuit supervisors have the immediate
             supervisory responsibility for assuring that these tasks are performed
             in a correct and timely manner.

             We will visit inspection houses during the next audit phase to
             determine if the circuit supervisors and the inspectors are fulfilling
             these responsibilities.

                                         Streamline the process and establish
 RECOMMENDATION NO. 13                   procedures that would allow expeditious
                                         entry of laboratory test results into the
                                         Automated Import Information System.

             Agency Response

             FSIS agrees that additional documentation would assist in clarifying
             the current system to both Agency personnel as well as outside
             auditors. FSIS is reevaluating the current system as part of
             the redesign of the AIIS and will improve the documentation by
             December 2000 to outline the procedures for entering laboratory
             results into the AIIS system.

             As an interim measure, in March 2000, the Field Automation
             Information Management (FAIM) Division instituted non-automated
             procedures to streamline the entry of residue and microbial results.
             As of March, FAIM receives faxes from the TSC of laboratory
             Form 9770-2 for all positive residue results. The FAIM Division then
             documents directly on the laboratory form both the date it was


Section III, Page 40                                    USDA/OIG-A/24099-3-Hy
            received (via fax) and the date/time the lab results were entered into
            AIIS. Entries into the AIIS are made the same day they are received.
            Also, an internal verification process will be established to monitor the
            data being entered into the AIIS.

            Also, FSIS is working to replace the AIIS. The new system, eventually
            sharing Sybase SQL tables with the Microbiological and Residue
            Computer Information System (MARCIS) and other agency systems
            will ensure real time accuracy of both negative and positive results of
            residue tests and microbiological tests. The FAIM Division began
            work on the new AIIS application in March 2000, with a test pilot
            planned for the first quarter of 2001. We expect the system to be fully
            operational by December 2001.

            OIG Position

            We accept FSIS’ management decision.

                                      Require the Office of Field Operations to
 RECOMMENDATION NO. 14                work with the Technical Service Center
                                      and the Field Automation and Information
                                      Management      Division    to   develop
       management controls and a supervisory review process to ensure that
       all laboratory test results are promptly and accurately entered into the
       Automated Import Information System. Management controls must
       include requirements for maintaining records of when failure
       notifications are received and when the entries are made into the
       Automated Import Information System.

            Agency Response

            FSIS agrees with this recommedation. The FAIM Division is focusing
            on incorporating the required management controls in the
            replacement AIIS, which should be completed by December 2001.
            The new import computer system will document when laboratory
            failure results are received and incorporated into the system data
            tables. In the interim, FSIS has established a manual tracking
            process that documents when notification of failures is received and
            when the entries are made into the AIIS. Entries are made within
            24 hours of receipt of the positive laboratory results. Negative
            resultsare obtained via a weekly download from MARCIS and entered
            that same day into the AIIS.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 41
                    FSIS believes that the management controls and supervisory review
                    process can be enhanced to ensure that all laboratory results are
                    promptly and accurately entered into the AIIS. Management controls
                    currently include requirements for maintaining records that indicate
                    when failure notifications are received, and when the entries are made
                    into the AIIS.

                    OIG Position

                    To reach management decision, FSIS needs to provide a target
                    completion date as to when the management controls and
                    supervisory review process will be documented in agency
                    procedures.


                                               Foreign governments are required to
             FINDING NO. 6                     certify annually that each of the
                                               establishments in their countries that
       FSIS DID NOT ENSURE THAT                export meat and poultry to the United
         ESTABLISHMENTS MET                    States continue to comply with the food
        ANNUAL CERTIFICATION                   safety systems under which they were
             REQUIREMENTS                      granted equivalent status. The FSIS
                                               Administrator may terminate the eligibility
                                               of any foreign establishment if a current
                certification of that establishment is not obtained 6. We found that
                FSIS management did not ensure that the annual certification
                requirement was fulfilled. Also, FSIS is not ensuring that certification
                information is posted in the Automated Import Information System so
                that inspection officials are aware of each establishment's status. We
                further found that, as of April 29, 1999, FSIS had not received the
                1999 annual certifications from establishments in 19 foreign countries
                which shipped about 2.3 billion pounds of product to the United States
                during 1999; or the 1998 annual certifications from establishments in
                4 foreign countries which accounted for 1.4 billion of the 3 billion
                pounds of product shipped to the United States during 1998. Allowing
                countries to delay their certifications reduces the control to prevent
                products from uncertified establishments from entering the United
                States. In addition, the Secretary's annual report to Congress,
                "Foreign Countries and Plants Certified to Export Meat and Poultry to
                the United States," may not be accurate. This report is to be
                submitted to the Committee on Agriculture of the House of
                Representatives and the Committee on Agriculture and Forestry of the
                Senate no later than March 1 of each year.

6
    Title 9 CFR, Part 327.2 (a) (3), dated January 1, 1998.


Section III, Page 42                                           USDA/OIG-A/24099-3-Hy
                    Regulations 7 state that only those establishments that are certified by
                    a responsible official of the foreign meat inspection system as fully
                    meeting U.S. requirements are eligible to have their products imported
                    into the United States. Certifications are to be renewed annually.

                    The Automated Import Information System must be annually updated
                    to reflect activity during the previous year that would affect current
                    inspection assignments. We were advised that FSIS assigned
                    January 1 of each year as the due date for foreign certifications.
                    However, documentation to affirm this date could not be provided. At
                    the beginning of 1998 and 1999, the foreign governments should have
                    provided FSIS with comprehensive lists of establishments certified to
                    ship meat and poultry products to the United States for those years.
                    According to functional statements, the Assistant Deputy Administrator
                    for International and Domestic Policy, through the Equivalence and
                    Planning Branch, is responsible for reviewing certification information
                    and forwarding it to the Field Automation and Information
                    Management Division for entry into the Automated Import Information
                    System. The Equivalence and Planning Branch is also responsible for
                    making delistment decisions and forwarding this information for entry
                    into the Automated Import Information System. We found that the
                    January 1 deadline became merely a target date that few countries
                    observed. The annual certifications were sent to FSIS at any time
                    during the year, and were not necessarily addressed to the same
                    FSIS official each time.

                    Reporting methods were inconsistent because FSIS had not
                    established procedures to ensure that critical information, including
                    the certification and delistment of foreign establishments, was
                    distributed to the appropriate staff members and promptly posted in
                    the Automated Import Information System. Staff members within the
                    Equivalence and Planning Branch and the Field Automation and
                    Information Management Division were unclear regarding the proper
                    processing of the certifications. We were told that lapses began
                    occurring after the reorganization, when related functions were
                    parceled out to separate entities within FSIS and older procedures
                    were abandoned.

                    We reviewed the Field Automation and Information Management
                    Division's lists of annual certification information. The "Annual
                    Certification of Plants for 1998" report shows that as of April 29, 1999,
                    4 of the 36 foreign countries (eligible to ship meat and poultry products
                    to the United States) had not submitted their comprehensive annual
7
    Title 9 CFR, Part 327.2 (a) (3), dated January 1, 1998.


USDA/OIG-A/24099-3-Hy                                                   Section III, Page 43
             certification listings that had been due in January 1998. According to
             the Field Automation and Information Management Division officials,
             the status of a foreign country or establishment in the Automated
             Import Information System cannot be changed without first receiving
             authorization from the Equivalence and Planning Branch. The Field
             Automation and Information Management Division raised concerns
             that it could not update the Automated Import Information System or
             the Secretary's report to Congress because the comprehensive
             annual certification information was not provided. An Equivalence and
             Planning Branch official contacted the Field Automation and
             Information Management Division and confirmed that four countries
             had not provided 1998 certifications, but advised the Field Automation
             and Information Management Division to "go with the same
             establishments" certified for 1997. These four countries exported
             1.4 billion pounds of meat and poultry products to the United States
             during 1998.

             The Field Automation and Information Management Division's "Annual
             Certification of Plants for 1999" shows that as of April 29, 1999, only
             17 of the 36 foreign countries submitted their comprehensive annual
             certification lists for 1999. The Automated Import Information System
             also continued to show that hundreds of foreign establishments from
             the 19 remaining countries remained eligible to ship products to the
             United States even though they had not been certified for 1999.

             FSIS officials stated that a country’s certification of its establishments
             never expires unless the nation removes itself from trade or unless
             the United States chooses to do so as a safety measure. FSIS
             requires that a foreign meat inspection certificate accompany each
             consignment. Each certificate, for each shipment, indicates that the
             exporting plant is certified by the foreign meat inspection system,
             and that the product complies with FSIS requirements. FSIS officials
             stated that the annual certification requirement is an “unnecessary
             redundancy.”

             Regulations currently require an annual certification of its
             establishments by the foreign meat inspection authority, as well as
             inspection certificates to accompany each shipment. OIG views these
             requirements as compensating controls since prior audits and
             investigations have identified weaknesses in controls over inspection
             certificates (both foreign and domestic) and concerns regarding their
             validity.




Section III, Page 44                                       USDA/OIG-A/24099-3-Hy
                                   Officially notify all countries importing
 RECOMMENDATION NO. 15             meat and poultry into the United States
                                   that annual certifications are due no later
                                   than the established date and that
       establishments that are not certified by this date may be delisted.
       Incorporate this requirement in regulations.

            Agency Response

            FSIS agrees that meat and poultry products exported to the United
            States must be produced in properly certified foreign establishments.
            To ensure that this occurs, the FAIM Division has established a web
            site with search capabilities that allows import inspectors to obtain the
            status (certification, delistment, relistment) of foreign establishments.

            FSIS agrees to continue to notify all countries that certifications of
            establishments must be renewed annually, and if establishments are
            not certified annually they may be delisted. However, FSIS does not
            agree with the OIG’s assertion that allowing countries to delay their
            certifications “reduces the control to prevent products from uncertified
            establishments from entering the United States”.

            Annual certification lists are often obsolete soon after they arrive
            because importing countries add and delete certified establishments
            throughout the year. Furthermore, an additional method exists to
            verify that the imported product was produced in an establishment
            certified for export to the United States. This method is set forth in
            9 CFR 327.4, “Imported products, foreign certificates required.” A
            foreign meat inspection certificate must accompany each consignment
            of fresh meat, fresh meat byproducts, or meat food products. All such
            consignments (or lots) offered for entry into the United States from any
            foreign country must be reinspected by an FSIS import inspector
            before they are allowed into this country. An authorized foreign
            government official signs the certification accompanying each lot.

            FSIS believes that these certificates provide ample evidence that the
            product they accompany was produced in a foreign-certified
            establishment. By September 2001, FSIS will publish a proposed
            revision of Part 327, Imported Products, to eliminate the annual
            certification requirement.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 45
             OIG Position

             We agree with FSIS’ response to notify all countries that certifications
             of establishments must be renewed annually, and if establishments
             are not certified annually, they may be delisted. However, we
             disagree that FSIS should eliminate their compensating control of
             requiring annual certifications from a responsible official of the foreign
             inspection systems. To reach management decision, FSIS needs to
             provide a target date as to when countries will be notified of the
             annual certification requirement. Also, if the annual certification
             requirement is discontinued, FSIS needs to develop compensating
             controls to ensure the validity of the foreign inspection certificate
             accompanying each shipment of product to the United States.

                                          Establish a followup process to obtain the
 RECOMMENDATION NO. 16                    annual certification lists from the countries
                                          which have not submitted them.

             Agency Response

             FSIS has established a follow-up process to obtain annual certification
             lists from countries that have not submitted them. This process is
             subject to change after the proposed revisions (see response to
             Recommendation 15) in Part 327 are implemented.

             Annual certification lists are sent from foreign countries to the IPD. In
             July 1999, effective for calendar year 2000, the FAIM Division
             established a procedure to notify IPD of every country for which FAIM
             has not received an annual certification of establishments. Starting in
             February 2000, and continuing on a monthly basis, the FAIM Division
             has notified the IPD of outstanding certification lists.

             OIG Position

             To reach management decision, FSIS needs to provide a target date
             for developing a follow-up process to include actions to be taken by
             the IPD when notified of outstanding certification lists.

                              Immediately conduct a reconciliation
 RECOMMENDATION NO. 17        between     establishment certification
                              information    maintained  by       the
                              Equivalence and Planning Branch and
       the Automated Import Information System to ensure that the
       Automated Import Information System includes only those


Section III, Page 46                                       USDA/OIG-A/24099-3-Hy
           establishments certified by their foreign governments to ship products
           to the United States.

           Agency Response

           FSIS agrees with the recommendation. Following the onsite portion of
           the OIG audit, the FAIM Division established a program of quarterly
           crosschecks of foreign government certification documents against
           the establishment listings contained in the AIIS. In addition, effective
           April 1999, the FAIM Division began sending to the IPD a weekly
           report listing all certified and decertified establishments maintained in
           the AIIS. IDP will begin reconciliation of the FAIM reported data and
           their internal records by December 2000.

           OIG Position

           We accept FSIS’ management decision.

                                        Establish time requirements and a
 RECOMMENDATION NO. 18                  management     control process      for
                                        reviewing and processing certification
                                        information in the Automated Import
           Information System.

           Agency Response

           FSIS agrees with this recommendation. The FAIM Division maintains
           an internal AIIS Import Manual of procedures document that will be
           updated by December 2000, to address time requirements and
           management control processes.        Supervisory oversight will be
           established whereby all changes to the AIIS status of establishments
           will be forwarded to the Branch Chief of the FAIM Applications
           Systems Development Branch for review.


           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 47
                                         Neither the Office of Policy, Program
         FINDING NO. 7                   Development and Evaluation nor the
                                         Office of Field Operations had formulated
    FSIS DID NOT ESTABLISH A             supervisory review procedures to ensure
     SYSTEM FOR TRACKING                 that all delistment, relistment, and related
          DELISTMENTS                    information was processed for accurate
                                         and timely entry into the Automated
                                         Import Information System. Technical
            Service Center officials were not timely informing the Office of Policy,
            Program Development and Evaluation about foreign establishments
            that were delisted prior to, or because of, their onsite reviews.
            Furthermore, after the reorganization, FSIS abandoned a system for
            tracking delistments and did not replace it. We found that in the
            absence of a tracking system, establishment delistments were not
            timely entered in the Automated Import Information System. As a
            result, these delisted establishments incorrectly remained eligible to
            present meat and poultry products for entry to the United States. We
            found seven establishments from four countries shipped about
            4.6 million pounds of meat and poultry products and presented them
            for reinspection even though the establishments were delisted. Based
            on documentation provided by FSIS, we were unable to determine
            whether product was produced prior to the delistment period. Nothing
            came to our attention during this audit, however, to indicate that FSIS
            allowed unsafe product to enter the United States.

             During our review of the Technical Service Center equivalency review
             (audit) reports, we noted that delistment information resulting from
             these reviews was not being timely provided to the Field Automation
             and Information Management Division for entry into the Automated
             Import Information System. In one case, the Technical Service Center
             reviewers learned that a foreign establishment had been slaughtering
             more than one species of animal in the same slaughterhouse and
             delisted the slaughterhouse in October 1998. However, the Field
             Automation and Information Management Division was not informed
             of this fact. As of May 4, 1999, the establishment remained certified in
             the Automated Import Information System even though the foreign
             country's February 25, 1999, annual certification list to the
             Equivalence and Planning Branch excluded the establishment. As of
             May 6, 1999, no product from this establishment had been presented
             for reinspection at U.S. ports.

             In another case, the Technical Service Center reviewers learned that
             a foreign government delisted an establishment prior to their
             March 1999 onsite review. As of May 4, 1999, the Field Automation


Section III, Page 48                                      USDA/OIG-A/24099-3-Hy
           and Information Management Division had not been informed about
           the delistment so the Automated Import Information System was not
           updated to reflect the establishment's delisted status.

           This lack of internal controls raises questions about the integrity of the
           data in the Automated Import Information System. For example, on
           December 29, 1998, the Office of Policy, Program Development and
           Evaluation received notifications from a foreign country’s Bureau of
           Animal Industry to withdraw approval (delist) two establishments in
           their country. However, the Office of Policy, Program Development
           and Evaluation did not provide this information to the Field Automation
           and Information Management Division for input to the Automated
           Import Information System until February 8, 1999. According to
           handwritten notes on the notification maintained by the Field
           Automation and Information Management Division, the delistment was
           entered into the Automated Import Information System on the day that
           it was received, February 8, 1999. However, an Automated Import
           Information System report dated April 28, 1999, shows that the
           establishments were not delisted. From January 25, 1999 to
           February 23, 1999, 355,104 pounds of meat products were presented
           for reinspection from these two foreign establishments.              Field
           Automation and Information Management Division personnel could
           not explain why the two establishments had not been delisted in the
           Automated Import Information System. However, because of our
           inquiries about the situation, the Automated Import Information
           System files for these two establishments were opened and these
           establishments were delisted. Field Automation and Information
           Management Division personnel made this adjustment without
           approval by a management official.

           We reviewed delistment information for 19 establishments from
           8 foreign countries. We compared this information to an Automated
           Import Information System printout of delisted establishments dated
           May 6, 1999, and to an Automated Import Information System printout
           of products presented for FSIS reinspection during the time these
           establishments should have been delisted. We found that in no
           instance was the information promptly provided to the Field
           Automation and Information Management Division to update the
           Automated Import Information System with the delistment status of the
           establishments. For example, the printout dated May 6, 1999,
           indicated that three establishments remained eligible to ship products
           to the United States even though one of the establishments was
           officially delisted in February 1999 and the other two in April 1999.



USDA/OIG-A/24099-3-Hy                                          Section III, Page 49
             Most importantly, seven establishments from four countries shipped
             over 4.6 million pounds of meat and poultry products and presented
             them for reinspection even though the establishments were delisted.
             This included:

             §   625,582 pounds of frozen cooked beef from one establishment
                 that was delisted because Listeria was found in previous
                 shipments of its frozen cooked beef;

             §   over 1 million pounds of meat products from an establishment that
                 shipped 20 shipments over a 5-month period after its delistment
                 date (December 24, 1998). [Note: we were able to determine that
                 two of the shipments, representing about 95,000 pounds of meat
                 products, were produced prior to the delistment date and were
                 eligible for FSIS reinspection; however, because FSIS maintains
                 limited information, we could not verify other shipments]; and

             §   664,272 pounds of beef by a delisted establishment that had been
                 cited for sanitation problems, Listeria violations, and the presence
                 of metal fragments in previous shipments of its beef products.
                 [Note: the limited information being maintained by FSIS shows that
                 55,409 pounds were produced prior to the establishment's
                 delistment and were eligible for FSIS reinspection.]

             FSIS officials provided documentation to support their conclusion that
             although the establishments were delisted, 4.9 million pounds of their
             products were eligible for FSIS reinspection because the shipments
             were certified by their foreign governments prior to the establishments’
             delistment periods. However, during our review of the documentation
             provided by FSIS, we found discrepancies significant enough to raise
             questions about the conclusion reached by FSIS officials. For
             example:

             §   the 4.9 million pounds reported by FSIS erroneously included
                 shipments that were presented for FSIS reinspection prior to the
                 delistment period and improperly included categories of products
                 that were eligible for shipment to the United States. (Note: The
                 4.6 million pounds reported by OIG included only those products
                 presented for FSIS reinspection while the foreign establishments
                 should have been delisted).

             §   shipments reported by FSIS as being sent to the United States
                 prior to the delistment period actually were sent during the
                 delistment period.


Section III, Page 50                                      USDA/OIG-A/24099-3-Hy
           §   at least 20 of the documents provided by FSIS could not be
               matched with specific shipment information, thus limiting our ability
               to verify the FSIS documentation and summary information.

           §   FSIS used incorrect beginning delistment dates for three
               establishments.

           §   FSIS did not have documentation for at least 16 shipments and did
               not indicate what action will be taken to determine if the shipments
               were certified by the foreign governments prior to the time that the
               products were presented for FSIS reinspection.

           According to FSIS, if the documentation has a date which coincides
           with the delistment period, the FSIS inspectors should have contacted
           FSIS headquarters or their respective district offices to verify eligibility
           of the shipments. The verification process should have also included
           contacting the foreign governments for clarification as to when the
           shipments were produced. However, FSIS noted in a summary of the
           documentation provided to OIG during April 2000, that the foreign
           governments will now be contacted to verify when these shipments
           were produced. Most of the products were shipped to the United
           States from December 1998 to June 1999. Thus, the verification is
           not occurring until 10 to 16 months have lapsed since these products
           were presented for FSIS reinspection. During our review of the
           documentation, we noted that at least 25 of these shipments had
           already been stamped “U.S. Inspected & Passed.”

           In March 1999, an official in FSIS' International Policy Division began
           noticing that delistments were not being adequately tracked. The
           official learned that a foreign establishment had not been delisted
           despite deficiencies in its slaughter operations and post mortem
           inspections, and despite failures in E. coli and Salmonella tests of its
           products. These deficiencies were noted by Technical Service Center
           staff during an onsite review of the establishment, but they were not
           communicated to the Equivalence and Planning Branch until about a
           month later. The Equivalence and Planning Branch waited another
           week before informing the Field Automation and Information
           Management Division of the deficiencies and requesting that the
           establishment be delisted in the Automated Import Information
           System.

           Even after FSIS management became aware of the delays in the flow
           of delistment information, corrective action was not initiated until


USDA/OIG-A/24099-3-Hy                                            Section III, Page 51
             2 months later, when we began reviewing the process. During our
             audit, the Equivalence and Planning Branch Chief instructed a
             management assistant to develop written procedures outlining how
             certification documentation should flow to the Field Automation and
             Information Management Division for entry into the Automated Import
             Information System, with weekly verifications between the Field
             Automation and Information Management Division and the
             Equivalence and Planning Branch. Such a procedure, however, does
             not seem to be efficient because the Automated Import Information
             System is incapable of printing a summary report of entries for a
             particular period. The Field Automation and Information Management
             Division program analyst informed us that they must download data
             about each separate establishment to present proof that the entries
             were made.

             Field Automation and Information Management Division officials
             informed us that a document control numbering system existed prior
             to FSIS' reorganization. A control number log system was used to
             record and track all critical documents, particularly those relevant to
             the eligibility of a country or foreign establishment. Under this system,
             the Equivalence and Planning Branch would prepare a letter
             transmitting certification and delistment documents bearing the control
             number. After the Field Automation and Information Management
             Division received the information and made the entries into the
             Automated Import Information System, the transmittal letter would be
             signed by a Field Automation and Information Management Division
             official and a copy would be returned to the Equivalence and Planning
             Branch as evidence that the Automated Import Information System
             was updated. The Field Automation and Information Management
             Division staff suggested that the Equivalence and Planning Branch
             reinstate the document numbering system abandoned during
             reorganization.

             We concluded that FSIS management needs to become more actively
             involved in maintaining the integrity of certification and delistment
             information in the Automated Import Information System. Specifically,
             the Office of Policy, Program Development and Evaluation needs to
             establish procedures for sending certification and delistment
             information to the Field Automation and Information Management
             Division and monitor those procedures to ensure compliance.

                                          Take immediate action to ensure that the
 RECOMMENDATION NO. 19                    Technical Service Center, the Field
                                          Automation and Information Management


Section III, Page 52                                      USDA/OIG-A/24099-3-Hy
           Division, and the Equivalence and Planning Branch coordinate efforts
           to verify that all delisted establishments have been timely entered into
           the Automated Import Information System.

           Agency Response

           FSIS agrees with this recommendation. FSIS will improve its system
           to verify that all delisted establishments are timely and properly
           entered into the AIIS. FSIS will establish, by October 1, 2000, a team
           comprised of OFO and OPPDE personnel, responsible for examining
           every aspect of the issue of ensuring that only product from approved
           and eligible establishments gains entry into the United States.

           In FY 2000, the FAIM Division expanded its Intranet Web Site with a
           posting of all delisted foreign establishments. This information is
           available to the TSC, IPD, and all field inspectors. The web site is
           updated when FAIM receives information from the IPD.

           OIG Position

           To reach management decision, FSIS needs to provide a target date
           for completing its review.

                                  Establish a management control process
 RECOMMENDATION NO. 20            to ensure that the Technical Service
                                  Center Director promptly forwards to the
                                  Office of Policy, Program Development
       and Evaluation information about foreign establishments that were
       delisted prior to, or because of, Technical Service Center foreign
       reviews.

           Agency Response

           FSIS has established a management control process to address this
           recommendation.        Information      regarding    foreign    country
           establishments that are delisted prior to TSC reviews is received
           either by fax or electronic mail from the foreign country government or
           through the Foreign Agricultural Service. This information is shared
           by all of the stakeholders, and discussed at the pre-audit conference
           held between the TSC and the IPD.

           Foreign country establishments are also delisted based upon results
           of onsite reviews by the TSC reviewers. Reviewers are instructed to
           report this information, by phone, to the Review Staff Director or Chief


USDA/OIG-A/24099-3-Hy                                         Section III, Page 53
             of the International Review Branch as soon as possible, but no later
             than the day following the onsite review. This information is detailed
             in an electronic mail message that is sent immediately to the Chief of
             the Equivalency and Planning Branch, IPD and also to the Director of
             the Import/Export, Program Analysis, IRM Staff at the TSC. A paper
             copy of the electronic mail message is placed in the foreign country
             file at the TSC.

             Both types of delistments are discussed at the post-audit exit
             conference held between the TSC and the IPD. The reviewer
             discusses the reasons given by the foreign country officials for
             delistment of any establishments prior to the review, and also
             discusses, in-depth, the reasons for any establishment delistment
             based upon the onsite review.

             OIG Position

             We accept FSIS’ management decision.

                                    Establish a management control process
 RECOMMENDATION NO. 21              to ensure that delistment information is
                                    (a) reviewed and signed by a designated
                                    official to the Field Automation and
       Information Management Division, via a dated control number, and (b)
       processed and verified in the Automated Import Information System.

             Agency Response

             Pursuant to this report, the FAIM Division implemented in May 2000, a
             management control process whereby the Branch Chief, Application
             Development and Support Branch, FAIM Division will be notified via
             e-mail of all incoming delistments received from IPD. Notification will
             include the date delistments are received, the date the information
             was entered into the AIIS, and a printout of all establishments as they
             appear in the AIIS. This procedure will be complete by October 2000.

             OIG Position

             We accept FSIS’ management decision.

                                         Modify the Automated Import Information
 RECOMMENDATION NO. 22                   System to produce daily process control
                                         reports to enable verification of input.



Section III, Page 54                                     USDA/OIG-A/24099-3-Hy
            Agency Response

            FSIS agrees with this recommendation. The FAIM Division has begun
            replacing the AIIS that was first deployed in the 1970s. Available
            resources will be better used in continuing development of the
            replacement AIIS, rather than making the recommended changes to
            the current AIIS.        The new system will incorporate this
            recommendation in its design. The intent of this recommendation will
            be met when the new computer system is completed by December
            2001.

            OIG Position

            We accept FSIS’ management decision.

                                        We found that for 1998, 33 of 36
       FINDING NO. 8                    countries that were certified to ship meat
                                        and poultry products to the United States
  RESIDUE TEST PLANS WERE               submitted residue test plans. However,
     NOT REVIEWED FOR                   13 of 36 countries did not submit the
      COMPLIANCE WITH                   corresponding test plan results to FSIS.
       U.S. STANDARDS                   Also, as of April 29, 1999, 15 of the
                                        36 certified countries did not submit
                                        their 1999 test plans. We could find no
          evidence that FSIS followed up with countries to obtain either their
          residue plans or test plan results. The residue test plans received
          were not reviewed by the Equivalence and Planning Branch, and the
          test results were not provided to the Technical Service Center for
          verification and followup during onsite reviews. Also, notes of entrance
          conference discussions between the Equivalence and Planning
          Branch and Technical Service Center staffs for 7 of the 12 foreign
          inspection system reviews conducted during the first 3 months of 1999
          showed that residue test plans were discussed for only 2 of the
          7 countries.

            Foreign countries that ship products to the United States are required
            to have residue control standards equivalent to those of the United
            States. These standards include (a) random sampling of animals
            at slaughter, (b) approved testing methods, (c) testing of appropriate
            target tissues, and (d) testing for compounds identified as potential
            contaminants of meat exported to the United States.

            Each foreign country is required to submit annually a residue test plan,
            which identifies the drugs and chemical residues that will be its


USDA/OIG-A/24099-3-Hy                                          Section III, Page 55
                     monitoring focus during the year. Foreign countries are also required
                     to provide the results of tests performed during the previous year.
                     FSIS should be using this information to monitor how well the
                     countries and their establishments are adhering to their residue test
                     plans. Furthermore, the Technical Service Center's foreign review
                     staff should be using residue test plans and results as they prepare for
                     their foreign onsite equivalency reviews.

                     Regulations 8 state that the foreign inspection system must maintain a
                     program to ensure that equivalency requirements are being met. The
                     program as implemented must provide for "random sampling of
                     internal organs and fat of carcasses at the point of slaughter and the
                     testing of such organs and fat, for such residues having been
                     identified by the exporting country's meat inspection authorities or by
                     [FSIS] as potential contaminants, in accordance with sampling and
                     analytical techniques approved by the Administrator."

                     Although a number of countries submitted residue test plans and
                     results, nothing much was done with the information, according to one
                     FSIS official, because it was not made part of a data base. The
                     official added that comparisons were not made to determine if the
                     countries actually performed the tests outlined in their plans for the
                     previous year. In this regard, we also noted that two of the 1998
                     residue test plans and one of the residue test plan results submitted
                     by three foreign countries had not yet been translated into the English
                     language for review by FSIS officials.

                     On May 7, 1999, the Office of Policy, Program Development and
                     Evaluation sent a questionnaire to the foreign countries to update
                     residue information originally provided during their pre-HACCP initial
                     eligibility determinations. An official advised that because this
                     questionnaire is comprehensive, the countries are still preparing their
                     responses.

                                                           Establish procedures to ensure that all
     RECOMMENDATION NO. 23                                 residue documents submitted by foreign
                                                           countries are received, reviewed, and
                                                           analyzed based on requirements outlined
                     in regulations.

                     Agency Response

                     See Recommendation No. 25.
8
    Title 9 CFR, Part 327.2 (a) (2) (iv), dated January 1, 1998.


Section III, Page 56                                                     USDA/OIG-A/24099-3-Hy
           OIG Position

           We accept FSIS’ management decision.


                                       Obtain the residue test plans not
 RECOMMENDATION NO. 24                 submitted since 1998 to determine if the
                                       foreign countries have residue control
                                       standards equivalent to the United States.

           Agency Response

           See Recommendation No. 25.


           OIG Position

           We accept FSIS’ management decision.


                                       Obtain and analyze the residue test plan
 RECOMMENDATION NO. 25                 results not submitted since 1998 to
                                       determine the adequacy of foreign
                                       countries' adherence to their residue test
           plans.

           Agency Response to Recommendation Nos. 23, 24 and 25

           FSIS agrees with the recommendations. FSIS agrees that it needs to
           strengthen its review of foreign country test plans. An interagency
           team was created on June 1, 2000, and expects to complete its initial
           review by December 2000. The team is responsible for the receipt,
           review, and analysis of all foreign country residue submissions. The
           team is comprised of representatives of OPPDE, OFO, and OPHS.
           The team will review the submissions based on U.S. regulations to
           determine if the information is adequate, if the documents indicate the
           countries meet U.S. requirements, and if additional information is
           needed.

           The test plans and results are only a part of the basis for assessing a
           foreign country’s residue program. FSIS onsite audits include reviews
           of the country’s laboratory testing capability and FSIS annually
           collects more than 8,000 statistically selected samples at the port of


USDA/OIG-A/24099-3-Hy                                        Section III, Page 57
             entry for laboratory analysis. Consequently, FSIS questions the need
             for collecting past residue plans and results because much more
             comprehensive information has been requested from every country
             through a lengthy questionnaire, which negates the value of the earlier
             submissions.

             Responses to the questionnaire will provide this information along with
             other information such as production practices, veterinary drug usage,
             agricultural chemicals and incidence of environmental contaminants
             and pesticides, basis for the residue plan, and actual implementation
             and operation of the program. By December 2000, FSIS will have a
             more complete and current assessment of the country’s controls. If,
             upon reviewing the responses, FSIS determines that required
             information is missing, it will be requested from the country. FSIS
             believes that focusing on in-depth reviews is a more productive use of
             its resources.

             OIG Position

             We accept FSIS’ management decision.

                                     Develop procedures to ensure that (a) a
 RECOMMENDATION NO. 26               review of residues identified by the
                                     exporting country's meat inspection
                                     authorities or by FSIS as potential
       contaminants are included as part of the Technical Service Center
       onsite equivalency reviews, and (b) appropriate action is taken in
       those instances where the plans are inadequate, the results vary from
       the plans, or violations are detected.

             Agency Response

             The IPD will provide the Director of the Review Staff at the TSC with
             a summary of the information in residue questionnaires submitted by
             countries eligible to export to the United States. The Review Staff will
             be part of the team that will review the submissions. The Review Staff
             and the IPD will use this information, along with port-of-entry results
             and information from past audits, to plan upcoming reviews.

             This year, FSIS is initiating in-depth reviews of residue programs in a
             number of countries exporting to the United States. These reviews
             will make a comprehensive evaluation of the effectiveness of the
             country’s controls over drugs and chemicals that could contaminate
             meat and poultry. This will include a review of documents, an
             assessment of whether the country is testing for the appropriate

Section III, Page 58                                      USDA/OIG-A/24099-3-Hy
           compounds, whether the plan is implemented as designed, laboratory
           capability, and enforcement. The reviews are expected to be
           completed by June 2001.

           OIG Position

           Management decision can be reached when FSIS provides a targeted
           completion date for developing, documenting, and implementing
           residue review procedures.




USDA/OIG-A/24099-3-Hy                                     Section III, Page 59
Section III, Page 60   USDA/OIG-A/24099-3-Hy
                             FSIS DOCUMENTATION OF APPROVED FOREIGN
    CHAPTER 3                FOOD SAFETY SYSTEMS NEEDS TO BE
                             ENHANCED

                    FSIS cannot demonstrate compliance with regulatory requirements for
                    determining foreign countries as having equivalent inspection systems
                    and, thus, eligible to export meat and poultry products to the United
                    States. The involvement of technical subject-matter experts in the
                    process for determining equivalency was not always documented and
                    process control procedures were not developed and/or adequately
                    documented. In some cases, FSIS' timeframes within which to make
                    equivalency determinations were inconsistent; in other cases, FSIS
                    did not meet the timeframes it established.

                    We also found that FSIS' documentation reviews and foreign
                    equivalency review (audit) reports did not always provide a sound
                    basis for equivalency determinations.

                    §    The Equivalence and Planning Branch's analysis of foreign
                         countries' import inspection systems was poorly documented,
                         offering inadequate support that the Equivalence and Planning
                         Branch reviewed all of the information submitted by foreign
                         countries for equivalency determinations.

                    §    Data needed to track equivalency determinations was incomplete.

                    §    FSIS reports for equivalency verification audits did not contain
                         evidence that all equivalency requirements had been fully
                         addressed. FSIS analysts made equivalency decisions in cases
                         where audit reports provided insufficient details of the tests made,
                         and where onsite equivalency verification audits had not been
                         conducted.

                    Regulations 9 require that the determination of the acceptability of
                    foreign countries to import meat and poultry products to the United
                    States include an evaluation that the foreign country inspection
                    program is equivalent to U.S. standards. To be equivalent, the
                    inspection system must require (1) a process similar to HACCP,
                    (2) mandatory E. coli testing, (3) pathogen reduction standards for
                    Salmonella and other pathogens, and (4) operating procedures for
                    sanitation, referred to as SSOP. The foreign inspection system must

9
    Title 9 CFR, Part 327 (a) (2), dated January 1, 1998.


USDA/OIG-A/24099-3-Hy                                                   Section III, Page 61
                     have a program that is adequately staffed by qualified inspectors, that
                     is controlled by the national government, and that is provided with
                     adequate administrative and technical support. It also needs to
                     demonstrate that it maintains a program of inspection, sanitation and
                     quality species verification. 10

                                           Contrary to documents provided by FSIS
           FINDING NO. 9                   to support their equivalency determination
                                           process, technical experts are not always
             TECHNICAL                     made a part of determining whether a
          SUBJECT-MATTER                   country's food safety regulatory system is
      EXPERTS DID NOT ALWAYS               equivalent to the U.S. system. Also, when
     PARTICIPATE IN EQUIVALENCY            they were involved, their participation was
          DETERMINATIONS                   not always adequately documented (see
                                           Finding No. 10). According to FSIS
                                           officials, all equivalence determinations,
              where a country proposes to adopt alternative sanitary measures, are
              made after review and consultation with agency subject-matter
              experts. If the foreign country adopted the identical E. coli testing
              approach, there was no need for the Microbiology Division to review
              those documents. However, we believe FSIS’ equivalence
              determinations could be subject to adverse publicity if evidence does
              not exist that appropriate technical experts participated in the review
              and approval process for all determinations that foreign country
              inspection systems are equivalent to U.S. standards.

                     The determination of whether a foreign country's import inspection
                     system is equivalent to U.S. standards involves the review of highly
                     technical documentation. According to an FSIS paper entitled, "FSIS
                     Process for Evaluating the Equivalence of Foreign Meat and Poultry
                     Food Regulatory Systems," dated March 1999, FSIS developed a
                     process to conduct equivalence evaluations of foreign food regulatory
                     systems or of individual sanitary measures that vary from U.S.
                     requirements.     These evaluations employ evolving international
                     concepts of the linkage between a sanitary measure designed to
                     protect life or health, and the appropriate level of protection it is
                     intended to achieve. Stressing the degree to which sanitary measures
                     require a technical knowledge of food hazard controls, FSIS
                     procedures state that "FSIS experts [should] review the country's
                     program to assure that approved analytical methods are used, that
                     foreign officials are knowledgeable about the use of chemical
                     compounds in their country, and that the country tests for those
                     compounds with potential for getting into the U.S. food supply."
10
     Title 9 CFR, Part 327.2 (a) (2) (i), dated January 1, 1998.


Section III, Page 62                                               USDA/OIG-A/24099-3-Hy
           FSIS provided us various documents which purportedly documented
           their procedures for determining equivalency. An undated paper
           entitled "Importing Meat and Poultry to the United States," states, that
           for initial equivalence determinations, "FSIS technical experts evaluate
           information to assure that critical areas in the five risk areas
           (contamination, disease, processing, residues, and compliance and
           economic fraud) are addressed satisfactorily with respect to
           standards, activities, resources, and enforcement. This review is
           conducted by a multi-disciplinary team composed, typically of a
           veterinarian, chemist, microbiologist, statistician, compliance officer,
           and food technologist." However, we found that this multi-disciplinary
           team was not always used during equivalency determinations.

           The Standards for Internal Control in the Federal Government states
           that management should ensure that skill needs are continually
           assessed and that the organization is able to obtain a workforce that
           has the required skills that match those necessary to achieve
           organizational goals. We question whether the Equivalence and
           Planning Branch, collectively, has the technical expertise to make
           equivalency determinations, in the absence of technical subject-matter
           experts. According to FSIS, the Equivalence and Planning Branch’s
           function is not to do technical reviews of equivalence issues, but to
           facilitate the equivalence determinations with Agency technical
           experts. However, if a country chose to adopt, in its entirety, the FSIS
           requirements, then equivalence determinations were made by the
           Branch.

           The Equivalence and Planning Branch's operating procedures for
           determining equivalence were developed by the Equivalence and
           Planning Branch Chief and are outlined in an undated document
           entitled "Procedures for Review of Documents Submitted for
           Equivalence Determination." These procedures state that the Chief,
           Equivalence and Planning Branch, determines whether the document
           review should be undertaken by the Equivalence and Planning
           Branch, or if a special review team is needed. Based on discussions
           with the Equivalence and Planning Branch Chief, we found that this
           special review team consists of the Equivalence and Planning Branch
           program analysts. The procedures also state that, if necessary,
           portions of the documents are provided to subject-matter experts for
           additional review. Comments from these experts are reviewed and
           considered during the equivalence meetings. According to the
           Equivalence and Planning Branch Chief, assistance from FSIS



USDA/OIG-A/24099-3-Hy                                         Section III, Page 63
             microbiologists, chemists, or other experts is requested if a country
             wants to use an alternative system.

             Once documents are reviewed and additional information is requested
             and received, team reviews are conducted only for what the
             Equivalence and Planning Branch Chief regards as complex cases.
             In response to questions that we raised concerning the Equivalence
             and Planning Branch's internal procedures, the Equivalence and
             Planning Branch Chief wrote in a July 16, 1999, memo that, "if the
             equivalence determination is complex or particularly difficult, a team
             review will be initiated. If the issue is reasonably simple to address, a
             team review may not be initiated.... I have the discretion to make a
             decision as to whether I have a team review a document, I review the
             document, or I assign someone else to review a document."

             According to our discussions with Equivalence and Planning Branch
             staff, Equivalence and Planning Branch's determination of equivalency
             is based on a roundtable discussion by the program analysts after
             they review the documents submitted by the foreign countries under
             consideration. In many instances, along with the branch chief, the
             program analysts reviewed documents related to a foreign country's
             inspection system without the involvement of a technical subject-
             matter expert. Based on our review, we found correspondence from
             technical subject-matter experts in only 19 of 37 foreign country files
             reviewed.

             According to FSIS officials, FSIS employs a multi-disciplinary team for
             initial equivalence determinations, but not for ongoing equivalence
             decisions about specific measures adopted by countries that have
             already been found to have equivalent systems. FSIS officials also
             stated that “…each E. coli equivalence determination of any sanitary
             measure that differed from FSIS requirements was fully vetted and
             reviewed by… five levels of management.” FSIS officials
             acknowledged that this review process, however, was not
             documented.

             FSIS officials disagree with OIG concerns regarding the qualification
             of the Equivalence and Planning Branch staff to make equivalence
             decisions, and stated that the positions in this Branch have not been
             classified as having a specific educational degree requirement; the
             staff collectively possess the knowledge, skills, and ability necessary
             for their position.




Section III, Page 64                                      USDA/OIG-A/24099-3-Hy
            FSIS recognized the importance of, and the technical expertise
            needed in, making sound equivalence determinations. An undated
            document prepared by the Equivalence and Planning Branch entitled
            "Pathogen Reduction/HACCP Equivalence Determinations," states
            that, "FSIS' process for evaluating the equivalency of foreign meat and
            poultry food regulatory systems is both pathfinding and precedence
            setting. No other food regulatory system in the world, to our
            knowledge, is actively engaged in applying the concepts of
            equivalence to the degree and extent as is FSIS. The matter of
            exactly how an importing country judges, and determines equivalence
            is controversial. The world is watching how FSIS carries out its
            equivalence process." On April 14, 2000, FSIS provided copies of
            e-mails, memos, and other correspondence to show subject-matter
            experts’ participation in reviews of E. coli testing programs. These
            documents, however, were not maintained in the country files. FSIS
            needs to implement procedures to ensure that technical subject-
            matter experts are involved in equivalency determinations, as
            appropriate, and that their equivalency determinations are adequately
            documented.

                                     Develop procedures that require the
 RECOMMENDATION NO. 27               participation of technical subject-matter
                                     experts, as appropriate, in equivalency
                                     determinations, and document the
       experts' participation, analyses, and conclusions.

            Agency Response

            FSIS agrees to develop formal procedures by October 2000, for
            participation of technical subject-matter experts, as appropriate, in
            equivalence determinations. FSIS will apply this approach, in making
            equivalence determinations, where a foreign country proposes to
            adopt requirements that are different from FSIS requirements. When
            a country proposes to adopt an identical requirement, then it is not
            necessary to involve subject-matter experts in those determinations.
            This is often the case during FSIS’ evaluation of foreign country
            documents submitted in response to the HACCP/pathogen reduction
            regulation.

            OIG Position

            We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 65
                            Document and implement a system of
 RECOMMENDATION NO. 28      internal controls to ensure the adequacy
                            and support for foreign equivalency
                            determinations. This should include a
       formal review and approval process for the equivalence
       determinations made.

             Agency Response

             FSIS agrees with this recommendation. FSIS will formalize its
             procedures and documentation of equivalence decisions.            By
             December 2000, FSIS will complete the implementation of an internal
             controls system for foreign equivalency determinations. Effective
             July 1, 2000, new equivalence decision files will document: 1) All
             FSIS correspondence with foreign countries; 2) All foreign country
             submissions (translated and in the originating language); 3) Summary
             IPD reviews of submissions; 4) Summary of all meetings and
             teleconferences with foreign officials; 5) Summary of all reviews by
             subject-matter experts; 6) Documentation of equivalence criteria;
             7) Summary of all FSIS management formal reviews and approvals;
             and 8) Decision memorandum of the equivalence determinations.

             OIG Position

             We accept FSIS’ management decision.

                                      The Standards for Internal Control in the
        FINDING NO. 10                Federal Government states that internal
                                      controls and all transactions and other
         EQUIVALENCE                  significant events need to be clearly
  DETERMINATIONS WERE NOT             documented, and documentation should
    ALWAYS SUPPORTED BY               be readily available for examination. As
     FILE DOCUMENTATION               part of the "Top-to-Bottom Review" for the
                                      pending reorganization, FSIS identified
                                      the increased need for clear and concise
           documentation, along with the ability to explain the results of various
           tests and findings. We found that the Equivalence and Planning
           Branch's files containing the results of documentation reviews of
           foreign inspection systems did not always include adequate
           documentation to support equivalence determinations for SSOP's and
           E. coli testing. (FSIS was in the process of determining the
           equivalence of foreign systems for HACCP and Salmonella testing
           during our field work. Therefore, we were not able to evaluate the


Section III, Page 66                                    USDA/OIG-A/24099-3-Hy
           support for equivalence determinations for these areas.) In all
           instances, the Equivalence and Planning Branch did not document
           how it determined that a country's SSOP and E. coli testing
           requirements were equivalent to U.S. standards, while in some
           instances, the files did not contain the information the Equivalence
           and Planning Branch would have needed to make a determination.
           Procedures had not been developed to ensure that this type of
           documentation was prepared and maintained to support equivalency
           determinations. In one case, the Equivalence and Planning Branch
           conferred "provisional equivalency" on a country even though
           available documentation, including an onsite equivalence verification
           review, suggested the country's alternative system was not equivalent.

           In August 1996, the Equivalence and Planning Branch sent foreign
           countries a copy of the requirements for pathogen reduction and
           HACCP, along with an implementation schedule. In October of that
           year, the Equivalence and Planning Branch provided additional
           information on the new requirements and requested information on
           country plans to implement the SSOP and E. coli testing
           requirements.    Foreign countries wishing to be approved for
           equivalency status were requested to submit responses to
           questionnaires and documentation to support that the requirements of
           HACCP and pathogen reduction have been met. Countries were also
           requested to provide copies of all statutes, regulations, directives,
           circulars, manuals, and other written instructions that implement the
           HACCP and SSOP requirements, and Salmonella and E. coli testing
           program requirements. In addition, the country governments' plans for
           meeting these requirements by adopting the same or an equivalent
           set of sanitary measures were also required. Countries were to
           submit their SSOP and E. coli testing plans no later than
           December 31, 1996.

           We evaluated the Equivalence and Planning Branch's process and
           procedures for making equivalence determinations and reviewed the
           country files for the 37 countries that applied for eligibility to import to
           the United States under the new standards. Documents in the files
           included the countries' submission of their SSOP and E. coli testing
           programs, telegrams sent by the Equivalence and Planning Branch to
           the countries, Equivalence and Planning Branch minutes of their
           review of countries' submissions, microbiology laboratory results, and
           other internal correspondence.




USDA/OIG-A/24099-3-Hy                                            Section III, Page 67
             a. Equivalence Analysis Was Not Adequately Documented

                 Documentation was not always sufficient to show how the
                 Equivalence and Planning Branch determined the equivalency of
                 the 37 countries reviewed for SSOP and E. coli testing. According
                 to the Equivalence and Planning Branch Chief, information
                 provided by the foreign countries was copied and distributed to
                 members of the Equivalence and Planning Branch review team for
                 an evaluation of each country's inspection system. After each
                 evaluation, the team arrived at a consensus on each issue of
                 equivalence, which was summarized in minutes of its discussions
                 of foreign country submissions. However, based on our review of
                 these summaries, they are very broad and do not describe what
                 information was reviewed, the events that occurred, or the results
                 of the Equivalence and Planning Branch's analysis which led to the
                 equivalency conclusion.

                 The following represent examples of instances in which we were
                 unable to determine the process used by FSIS to evaluate the
                 adequacy of foreign countries' food inspection systems.

                 Country F.       The file on Country F contained insufficient
                 documentation to explain how the Equivalence and Planning
                 Branch determined the adequacy of Country F’s E. coli testing
                 program. There was no evidence in the file to show that Country F
                 had responded to all of FSIS' requests for documentation.
                 Summaries of Equivalence and Planning Branch's discussions on
                 what Country F had submitted were prepared for January,
                 February, and July 1997. The July summary stated that the SSOP
                 information was sufficient, but the summary showed no analysis
                 that resulted in this conclusion. The summary also stated that the
                 Equivalence and Planning Branch would wait for the Microbiology
                 Division to review Country F’s E. coli sampling submissions, but
                 there were no follow-up summaries on this issue.

                 An onsite equivalency review of Country F’s inspection system
                 was conducted from November 20 through December 10, 1997.
                 The review report concluded that Country F’s inspection system
                 did not have effective controls in place to consistently prevent,
                 detect, control, and correct product adulteration. The one
                 slaughterhouse did not have E. coli testing procedures in place.

                 In April 1998, the Microbiology Division completed its analysis of
                 Country F’s E. coli testing procedures. The results stated that


Section III, Page 68                                     USDA/OIG-A/24099-3-Hy
             Country F needed to revise information it provided about its
             sampling techniques. The file shows no additional information
             between April and August 1998, when an Equivalence and
             Planning Branch memorandum was sent to the FSIS Administrator
             stating that Country F had implemented an equivalent E. coli
             testing program. As of the completion of our field work, a
             subsequent onsite equivalency review had not been conducted to
             verify the equivalency of the E. coli testing program.

             Country D.      An August 1998 Office of Policy, Program
             Development and Evaluation memorandum stated that
             Country D’s E. coli system was not equivalent, but as of
             April 15, 1999, Country D is shown as "provisionally equivalent."
             However, we were unable to identify information in Country D’s file
             that would support this determination. A comparison study
             between the E. coli-based system of the United States and the
             Enterobacteriaceae-based system of Country D was not
             completed, and issues related to the collection of indicator
             organisms had not been resolved as of the completion of our field
             work.

             An onsite review performed at the end of 1997 identified significant
             operational and systems deficiencies pertaining to in-plant
             inspection system controls and E. coli testing requirements. It is
             unclear, however, whether Country D’s use of an alternative
             system of E. coli testing was reviewed. The report stated, "E. coli
             testing was not performed in any establishments that slaughtered
             swine and bovine." However, Technical Service Center reviewers
             asked managers in Country D the same series of questions asked
             in the United States to determine if U.S. requirements are being
             met.

             Even though FSIS maintained concerns over Country D’s E. coli
             testing, an onsite equivalency review was not conducted in 1998.
             The Microbiology Division's January 28, 1998, review of
             information submitted by Country D concluded that none of the
             documents pertained to generic E. coli testing, and that the
             bacteriological testing procedures submitted were not equivalent to
             the generic E. coli testing program required under HACCP and
             pathogen reduction. As stated in FSIS' April 21, 1998, telegram to
             Country D requesting additional information, "Country D’s testing
             program      establishes     Aerobic    Colony       Counts     and
             Enterobacteriaceae Colony Counts as the indicator organisms for
             validating and verifying the process control of fecal contamination.


USDA/OIG-A/24099-3-Hy                                       Section III, Page 69
                 The pathogen reduction/HACCP final rule establishes generic
                 E. coli as the indicator organism." Also, a May 13, 1998,
                 memorandum from a Microbiology Division staff member to the
                 Equivalence and Planning Branch states, "The pathogen
                 reduction/HACCP final rule specifies that generic E. coli is the
                 most effective measure of process control for fecal contamination.
                 Since we do not yet have a policy statement on generic E. coli
                 testing, I have simply prepared a list of differences, between the
                 generic E. coli testing outlined in pathogen reduction/HACCP and
                 Country D’s system."

                 Even though the Microbiology Division had determined that the
                 alternative sampling method that Country D wanted to adopt was
                 not equivalent to generic E. coli as the indicator organism, a
                 September 10, 1998, letter from Country D’s government to FSIS'
                 stated, "I am pleased that you agree to Country D’s proposal to
                 use Aerobic Plate Counts and Enterobacteriaceae bacterial counts
                 as test indicators." Subsequent to this, Country D sent the
                 Equivalence and Planning Branch an equivalence assessment
                 plan (for alternative E. coli testing) dated September 30, 1998.
                 The Microbiology Division's October 7, 1998, assessment of this
                 plan stated that parts of the draft submission were unclear and
                 confusing, and suggested improvements to the plan. Of note was
                 the choice of a different indicator organism, indicating that
                 Country D would need to provide a comparative study between
                 the United States’ E. coli testing program and Country D’s
                 Enterobacteriaceae testing program. In response to FSIS' request
                 for clarification and additional information to be added to
                 Country D’s plan, Country D resubmitted the same information that
                 was previously found lacking by the Microbiology Division, and
                 dated it October 27, 1998.

                 Country D drafted a November 5, 1998, "Experimental Plan" in
                 order to conduct a comparative study analysis between Aerobic
                 Plate Counts Enterobacteriaceae and generic E. coli testing and
                 the differences in the size of the surface areas sampled. However,
                 a November 9, 1998, memorandum from the microbiologist
                 reviewing the "Experimental Plan" stated that it should be
                 resubmitted with a more detailed protocol because it was
                 unclear as to exactly what the researchers would be doing in
                 each part of the study. The memorandum also stated that
                 FSIS hoped to resolve the issues in an upcoming meeting in
                 January 1999.



Section III, Page 70                                     USDA/OIG-A/24099-3-Hy
             As a result of the January 12 and 13, 1999, conference with
             Country D officials in Washington, DC, a "Proposal for Equivalency
             Study" was adopted. The study was to be completed by May 1;
             however, the Technical Service Center onsite equivalency review
             performed from January 25 to February 26, 1999, concluded that
             Country D had not fully implemented pathogen reduction and
             HACCP requirements. Therefore, at the time of the onsite review,
             Country D was not in compliance with the pathogen
             reduction/HACCP requirements for generic E. coli testing.

             To respond to our questions concerning missing documentation,
             the Equivalence and Planning Branch Chief prepared a
             chronology, dated July 14, 1999, which outlined events related to
             Country D’s equivalency determination.        According to the
             chronology, on December 3, 1998, FSIS advised Country D that
             testing for Enterobacteriaceae was equivalent to E. coli testing
             provided that they initiate a study comparing the two
             testing programs in those areas where they differed.          On
             December 15, 1998, a document listing two of the remaining
             issues outstanding from the documentation and outlining the
             comments raised by the Microbiology Division and the Equivalence
             and Planning     Branch were faxed to Country D for comment.
             Subsequently, a December 21, 1998, letter was sent to the
             Equivalence and Planning Branch thanking FSIS for accepting
             Enterobacteriaceae testing.

             The chronology noted that most of the document review
             deficiencies were resolved between FSIS and Country D officials
             at the January 12-13, 1999, meeting. On March 10, 1999, a
             meeting with Country D officials was initiated to address the
             remaining document review issues and each finding as a result of
             the Technical Service Center onsite review. On April 21, 1999, a
             letter was faxed by Country D, which satisfactorily addressed
             the document review issues. On June 1, 1999, the Microbiology
             Division provided a favorable evaluation of the results of
             Country D’s research comparing E. coli testing to
             Enterobacteriaceae testing.

             None of the additional information included in the July 1999
             chronology prepared by the Equivalence and Planning Branch was
             documented in the country file for Country D.

             Country G. A Technical Service Center onsite equivalency review
             completed in June 1998 found that Country G (1) was not


USDA/OIG-A/24099-3-Hy                                      Section III, Page 71
                 performing species verification testing, (2) had not developed
                 actions to take if establishments failed to implement pathogen
                 reduction and HACCP requirements, (3) did not follow U.S.
                 standards in sampling for E. coli, and (4) did not monitor for
                 Listeria and Salmonella in ready-to-eat products. We noted that
                 the approval date for the 1998 onsite review report was
                 March 9, 1999, 9 months after it was completed and 4 months
                 after the FSIS cable confirming Country G’s equivalency status.
                 The review report recommended that Country G outline the
                 procedures it planned to implement to correct the deficiencies
                 noted in the report.

                 Country G’s E. coli testing program was determined equivalent
                 based on a November 1998 cable from FSIS to the Agriculture
                 Counselor for Warsaw that stated that Country G has agreed to
                 use an equivalent, internationally recognized method to analyze
                 E. coli. We were unable to locate documentation in the country file
                 to support this agreement. However, on April 14, 2000, FSIS
                 provided documentation of an October 6, 1998, cable from
                 Country G to FSIS which stated that Country G Veterinary Officials
                 confirmed that they would be able to comply with the conditions
                 required by FSIS for E. coli testing by October 8, 1999.

                 The November 1998 cable also stated that FSIS was unsure if
                 Country G took the required 12 months to complete its baseline
                 study to establish performance criteria for E. coli testing, and noted
                 that unless Country G met the baseline study qualification, FSIS
                 would assume (emphasis added) it was using the statistical
                 process control techniques it had agreed to implement. Based on
                 the inadequacy of information to clarify FSIS' uncertainties about
                 Country G’s performance criteria and corrective actions taken to
                 address the deficiencies found in the 1998 onsite review, we
                 question FSIS' equivalency determination.

                 According to the July 14, 1999, chronology for Country G prepared
                 by the Equivalence and Planning Branch in response to our
                 questions, the May/June 1999 onsite equivalency review of
                 Country G found that statistical process control techniques for
                 E. coli testing were implemented in all but one establishment.
                 However, we continue to have concerns over the Equivalence and
                 Planning Branch's equivalency determination process since
                 Country G was determined to be equivalent in November 1998,
                 which was prior to the results of the May/June 1999 onsite review.



Section III, Page 72                                       USDA/OIG-A/24099-3-Hy
           b. The Equivalence and Planning Branch Did Not Adequately Track
              the Data Involved in Equivalence Determinations

              The Standards for Internal Control in the Federal Government
              states, in part, that control activities include the creation and
              maintenance of related records which provide evidence of
              execution of activities, as well as appropriate documentation. As
              part of our review, we requested the Equivalence and Planning
              Branch to provide all documentation related to equivalence
              determinations for each country approved to export meat and
              poultry products to the United States. We were informed that all
              information would be included in documentation review files
              maintained for each foreign country. However, we found that the
              Equivalence and Planning Branch documentation review files did
              not include all information pertaining to equivalence for each
              country. During our evaluation of the countries’ files, we identified
              information for 17 countries that was missing from the files. The
              type of information that could not be located included Microbiology
              Division analysis results and telegrams sent to countries regarding
              their SSOP's and E. coli testing.

              Of those 17 countries where there was insufficient data in the
              country file, 15 were approved as having an SSOP and E. coli
              testing program equivalent to U.S. requirements.

              For example, based on a March 13, 1998, cable from FSIS to the
              chief meat and/or poultry inspection official for Country H,
              information dated February 2, 1997, April 1997, June 19, 1997,
              and July 15, 18, 19, and 21, 1997, regarding the implementation
              of E. coli testing was submitted by Country H. However, our
              review of the country file for Country H did not identify any of these
              documents in the files. In addition, the file for Country I contained
              a September 10, 1997, response to an August 4, 1997, request
              from FSIS concerning their implementation of SSOP and E. coli.
              However, the file did not include FSIS’ August 4, 1997, request for
              information in order to determine the adequacy of Country I’s
              response.

           We conclude that FSIS needs to strengthen internal controls relating
           to its documentation of the processes used and analyses made in
           reaching equivalence determinations.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 73
                                  Develop a management control process
 RECOMMENDATION NO. 29            and procedures to ensure equivalence
                                  decisions are adequately documented.
                                  The procedures should require that files
       contain supporting evidence, including detailed analysis of information
       received and reviewed, resolution of issues raised during the review
       process, and conclusions reached.

             Agency Response

             FSIS agrees with this recommendation. FSIS agrees that equivalence
             decisions should be adequately documented and that the files must
             be complete. Therefore, FSIS will institute the same measures
             described in response to Recommendation 28.

             The examples that OIG cites to demonstrate their concern with the
             equivalence determination process is misplaced and erroneously
             concludes that the equivalence process was incomplete. The process
             was complete, but not all of the documents were in the country files at
             the time of the audit.

             OIG Position

             We accept FSIS’ management decision.

                                        At the time of our audit (July 1999), FSIS
        FINDING NO. 11                  had not completed reviews to determine
                                        the equivalency status for foreign
         EQUIVALENCE                    countries that continue to export meat
     DETERMINATIONS WERE                and poultry products into the United
     NOT MADE IN A TIMELY               States under HACCP and pathogen
            MANNER                      reduction standards.       FSIS did not
                                        establish timeframes for completing
                                        reviews of E. coli and SSOP submissions
           from foreign countries, and it did not meet the timeframes it
           established for completing reviews of Salmonella and HACCP
           submissions. These reviews are critical in determining the adequacy
           of foreign country food safety systems.

             During the implementation of HACCP and pathogen reduction
             requirements for imported meat and poultry, establishments in the
             37 countries that had been approved for importing these products into
             the United States under the pre-HACCP system were allowed to
             continue their importations pending the Equivalence and Planning


Section III, Page 74                                     USDA/OIG-A/24099-3-Hy
                     Branch's approval of their governments' food safety systems and its
                     determination that those systems are equivalent to U.S. standards.
                     According to regulations,11 establishments with 500 or more
                     employees were required to have an equivalent system in place by
                     January 1998, and establishments with between 10 and 500
                     employees were required to have a system in place by January 1999.
                     (Establishments with fewer than 10 employees had until January 2000
                     to implement a system.) An FSIS official stated that a decision was
                     made to review country SSOP and E. coli testing programs before
                     reviewing HACCP and Salmonella because the SSOP and E. coli
                     requirements were to be in effect as of January 27, 1997.

                     The Equivalence and Planning Branch is responsible for ensuring that
                     eligible countries implement both systems by the established dates.
                     However, a formal plan for completing the equivalency determinations
                     for SSOP and E. coli testing was never established. The Equivalence
                     and Planning Branch prepared a plan to complete the HACCP and
                     Salmonella equivalency determinations and notify all 14 countries by
                     June 30, 1999. However, as of July 1999, the documents were still
                     under review by Equivalence and Planning Branch officials.

                                                          Establish a time-phased plan to expedite
     RECOMMENDATION NO. 30                                the process for determining equivalency.


                     Agency Response

                     FSIS agrees with this recommendation. FSIS will implement time-
                     phased plans for future equivalence determinations, effective
                     October 1, 2000.

                     OIG Position

                     We accept FSIS’ management decision.




11
     Title 9 CFR, Part 304 et al., dated July 25, 1996.



USDA/OIG-A/24099-3-Hy                                                         Section III, Page 75
                                          The Equivalence and Planning Branch
          FINDING NO. 12                  made HACCP and pathogen reduction
                                          equivalency determinations for current
            EQUIVALENCY                   trading partners in cases where Technical
     DETERMINATIONS WERE MADE             Service Center reviewers had not
     WITHOUT ONSITE REVIEWS FOR           performed onsite equivalency verification
     CURRENT TRADING PARTNERS             reviews. Regulations 12 state, in part, that
                                          maintenance of eligibility of a country for
                                          importation of products into the United
              States depends on the results of periodic reviews of the foreign meat
              inspection system in operation by a representative of the Department.
              According to documentation provided by FSIS, these periodic reviews
              are generally repeated annually. In addition, each equivalency
              decision should be based, in part, on an onsite verification review.
              However, we found that for current trading partners, onsite reviews of
              foreign food regulatory systems were not being conducted on an
              annual basis. FSIS did not place a high enough priority on the
              reviews to prevent budgetary constraints from restricting overseas
              travel. In addition, we found that six countries were approved
              equivalent for SSOP and E. coli without onsite reviews to verify the
              country inspection program was operating as represented by
              documentation submitted to FSIS.

                    In response to our concerns over the equivalence determination
                    process, FSIS prepared a document which stated, in part, that OIG
                    has incorrectly interpreted that audit (onsite review) findings have an
                    impact on document review equivalence decisions, and that the timing
                    of an audit must impact on the equivalence decision. In addition, an
                    April 3, 2000, document prepared by FSIS, in response to our draft
                    report, states that the regulations do not require that an onsite review
                    must be made before equivalence determinations regarding new FSIS
                    requirements that must be implemented by current trading partners to
                    maintain equivalence. However, without the onsite equivalency
                    verification review, there is no validation that the foreign country's food
                    regulatory system is operating as represented to FSIS.

                    The Equivalence and Planning Branch made equivalency decisions
                    for current trading partners after completing their documentation
                    reviews, but without the results of onsite verification reviews. In these
                    cases, the Technical Service Center had not conducted onsite reviews
                    to validate the equivalency of the foreign country's food regulatory
                    system. In 1997 and 1998, 37 countries were subject to review, but
                    only 30 onsite reviews were conducted in 1997 and 24 in 1998. A
12
      Title 9 CFR, Part 327 (a) (2), dated January 1, 1998.


Section III, Page 76                                               USDA/OIG-A/24099-3-Hy
           Technical Service Center management official stated that reviews
           were postponed because of a 40-percent cut in the International
           Review Staff's budget. However, FSIS had not developed a
           contingency plan for cases where a country had not received an
           onsite review as part of the equivalency determination process, or as
           part of the maintenance of eligibility requirement.

           Documents prepared by the Equivalence and Planning Branch for
           determining equivalency state that the onsite review is conducted after
           the Equivalence and Planning Branch completes its documentation
           review. However, for six countries, the Equivalence and Planning
           Branch granted equivalency status for SSOP and E. coli testing
           programs prior to an onsite review. The Equivalence and Planning
           Branch's documents for determining equivalence also state that
           before a final equivalency determination is made, another onsite audit
           is completed, and the findings and subsequent documents are
           thoroughly reviewed.        We found that for five countries, the
           Equivalence and Planning Branch granted equivalency status after
           completion of the documentation review, but before the onsite
           verification. Country B was granted equivalency in November 1998
           and was not subject to an onsite verification review in either 1997 or
           1998. A March 1999 onsite review of this country’s inspection system
           identified variances in their testing programs.




USDA/OIG-A/24099-3-Hy                                        Section III, Page 77
Table 1: Foreign Countries Determined "Equivalent" Prior to an Onsite Review

               Type of                           Date            Date of
              Approval         Date of       Documentation       Onsite
  Country    Per Foreign      Approval          Review           Audit          Comments
              Country                         Completed
                Cable


                                                                           No audit conducted in
    B        Equivalent    Nov. 12, 1998   Nov. 12, 1998       None        1997 or 1998.

                                                                           No audit conducted in
                                                                           1998. Cable stated
                                                                           equivalent for E. coli.
    E        Equivalent    Dec. 9, 1998    Dec. 9, 1998        Dec. 1997

                                                                           No audit conducted
                           E.coli                                          after documentation
                           Nov. 13, 1998                                   review. Cable stated
                           SSOP                                            equivalent for E. coli.
    G        Equivalent    Feb. 20, 1998   Nov. 13, 1998       June 1998

                                                                           No audit conducted
             Fully                                                         after documentation
     J       Equivalent    Dec. 2, 1998    June 23, 1998       Apr. 1998   review.

                                                                           No audit conducted
             Fully                                                         after documentation
    K        Equivalent    Dec. 9, 1998    Sept. 4, 1998       June 1998   review.

                                                                           No audit conducted
             Fully                                                         after documentation
    L        Equivalent    Dec. 2, 1998    June 11, 1998       Mar. 1998   review.



             Country E received an onsite review as early as 12 months before the
             documentation review was completed. Countries G, J, K, and L
             received onsite reviews as early as 2 to 5 months before the
             documentation reviews were completed. FSIS has not established
             any procedures that would allow use of the results of onsite reviews
             that had been performed prior to the completion of the documentation
             review. Specific areas reviewed during the onsite review may not be
             sufficient to verify information submitted by foreign countries for use in
             determining equivalency with U.S. requirements.




Section III, Page 78                                         USDA/OIG-A/24099-3-Hy
                                       Ensure that onsite audits for current
 RECOMMENDATION NO. 31                 trading partners are conducted at least
                                       annually.

           Agency Response

           FSIS agrees with this recommendation.       This issue will be
           incorporated into the FSIS procedures for import inspections by
           December 2000.

           OIG Position

           We accept FSIS’ management decision.


                                       For current trading partners, develop and
 RECOMMENDATION NO. 32                 implement a policy for onsite verifications
                                       of changes in the requirements for
                                       foreign inspection systems.

           Agency Response

           FSIS agrees with this recommendation. The equivalence process
           begins with a document review, to determine if the foreign country’s
           written submission documents how its sanitary measures meet the
           United States’ appropriate level of protection. This evaluation is then
           verified by an onsite audit to confirm that the foreign country has in
           fact implemented its sanitary measures, as described in its written
           submission.

           However, the finding for this recommendation reflects a
           misinterpretation of 9 CFR 327.2. The misinterpretation is evidenced
           by a statement: “We found that the food regulatory systems of six
           countries were determined “equivalent” by the Equivalence and
           Planning Branch without verification by an onsite review.”

           This statement is incorrect. The six countries (cited later in a table)
           have food regulatory systems that were found fully equivalent to the
           U.S. system many years ago.          Each of these countries has
           undergone initial equivalence evaluations to include an extensive
           onsite audit and are listed as equivalent at 9 CFR 327.2(b)
           Additionally, each of these countries has been audited onsite many
           times since their food regulatory systems were initially found
           equivalent.


USDA/OIG-A/24099-3-Hy                                        Section III, Page 79
             When an eligible country proposes an alternative sanitary measure
             to FSIS for an equivalence decision, FSIS conducts a full document
             analysis of only that component of the foreign food regulatory system
             that is affected by the change. A final determination of equivalence
             for a proposed sanitary measure is verified by onsite audit. Trade
             continues in the interim. Three circumstances could result in an
             interruption of trade. One, where an emergency sanitary measure is
             implemented by FSIS to address a hazard that is so severe that no
             product can enter the marketplace from a foreign establishment until
             the control is in place. Two, where an exporting country does not
             provide satisfactory documentary evidence of an equivalent sanitary
             measure. Three, where a system audit reveals that an exporting
             country is not implementing a public health sanitary measure in the
             manner that FSIS initially determined to be equivalent. None of
             these three conditions applied during FSIS evaluations of
             PR/HACCP alternative sanitary measures proposed by foreign
             countries.

             OIG Position

             To reach management decision, FSIS needs to provide a target date
             for the development and implementation of a policy for onsite
             verifications of changes in the requirements for foreign inspection
             systems.

                              Clarify the regulations regarding FSIS’
RECOMMENDATION NO. 33         procedures for determining equivalence
                              for current trading partners, taking into
                              consideration major changes such as
       HACCP and pathogen reduction requirements.
             Agency Response

             FSIS has been properly applying its regulations regarding equivalence
             determinations. In the future, FSIS will take into consideration major
             changes, such as PR/HACCP, as it documents its procedures for
             determining whether equivalence is maintained for current trading
             partners, as referenced in our response to Recommendation No. 12.

             OIG Position

             To reach management decision FSIS needs to provide a target date
             for the development and implementation of a policy for onsite
             verifications of changes in the requirements for foreign inspection
             systems.

Section III, Page 80                                    USDA/OIG-A/24099-3-Hy
                                       Technical     Service      Center  onsite
       FINDING NO. 13                  equivalency   verification  review (audit)
                                       reports and their supporting notes do not
     ONSITE EQUIVALENCY                provide documented evidence that U.S.
    VERIFICATION REVIEWS               equivalent inspection requirements were
      NEED TO BE BETTER                verified as functioning. In addition, we
         DOCUMENTED                    found inconsistency in the information
                                       included in the audit reports and
                                       supporting review notes. Reporting and
          evidence standards had not been established to support the adequacy
          of the onsite reviews and subsequent equivalency determinations.
          Although FSIS refers to their onsite verification reviews as audits,
          these reviews are not conducted and/or reported in accordance with
          Generally Accepted Government Auditing Standards. FSIS does not
          maintain sufficient, competent evidence to support the scope of the
          verification work or the conclusion that foreign systems were
          equivalent to U.S. inspection standards.

           Documentation provided by FSIS on April 3, 2000, states, in part, that
           “The annual ongoing equivalence onsite reviews are not required to
           cover all aspects of a country’s inspection system on each visit. Prior
           to becoming eligible to export to the United States, all countries had
           previously been subjected to an onsite team audit by Agency experts.
           These annual audits focus primarily on new FSIS inspection
           requirements and sampling of inspection requirements on other risk
           areas on a case by case basis.”

           We reviewed audit reports for 31 countries and determined that none
           of the reports or supporting review notes included sufficient
           information to be used as a basis for making equivalency
           determinations. Many of the reports and supporting review notes
           lacked sufficient information about deficiencies identified during the
           review. Therefore, there is a risk that equivalency determinations are
           not supported and that adequate followup on corrective actions will not
           occur during subsequent reviews.

           The Technical Service Center staff is responsible for conducting
           onsite equivalency reviews to verify whether a country's food safety
           regulatory inspection system meets U.S. standards. The review
           seeks evidence that the exporting country has instituted sanitary
           measures that will provide the same level of protection for American
           consumers that is ensured by the domestic system.



USDA/OIG-A/24099-3-Hy                                        Section III, Page 81
                    The audit reports are provided to the Equivalence and Planning
                    Branch and, according to FSIS procedures, are used as a basis for
                    making equivalency decisions. However, according to subsequent
                    documentation provided by FSIS, the audit reports are not the only
                    basis for making equivalence determinations. Prior to the equivalency
                    decision, the Equivalence and Planning Branch staff members review
                    the reports to determine if the country's system of oversight and
                    compliance, as represented in their laws, regulations, and other
                    documentation, is in place and functioning. Regulations 13 require that
                    FSIS review country documentation to ensure that foreign inspection
                    programs meet U.S. requirements. Those requirements identify an
                    "equivalent" system as a national food safety program that meets U.S.
                    standards with regard to organization and staffing, supervision of
                    employees, qualification of inspectors, enforcement authority, and
                    national sanitation and residue standards. Regulations further identify
                    an "equivalent" inspection program as one that provides periodic
                    inspections, random sampling, and written reports.

                    We reviewed audit reports performed of establishments in foreign
                    countries during 1997 and 1998 and found that none of the reports
                    specifically addressed U.S. equivalent elements relating to HACCP
                    and pathogen reduction requirements, as outlined in Federal
                    regulations. We could not determine if required elements were
                    reviewed by the Technical Service Center staff. For example, the
                    reports for Country H, Country N, and Country O make no reference
                    to inspector qualifications and supervision. The reports for Country H,
                    Country N, and Country O also make no reference to any review of
                    the enforcement authority the national governments claimed to have
                    over meat and poultry establishments. The reports for Country A,
                    Country P, Country Q, Country R, Country G, Country S, Country T,
                    Country U, Country V, and Country J include a general statement that
                    a visit was made with foreign national inspection officials to discuss
                    their oversight program and practices. However, neither the reports or
                    supporting review notes provide sufficient information to document
                    that U.S. requirements relating to organizational structure, staffing,
                    and qualifications of inspectors were validated.

                    According to FSIS officials, the organizational structure, staffing, and
                    qualifications of inspectors had not changed since the prior audit, and
                    reviewers had verified this through discussions with the country
                    inspection officials during the entrance conference.



13
     Title 9 CFR, Part 327.2, dated January 1, 1998.


Section III, Page 82                                             USDA/OIG-A/24099-3-Hy
           For Country P, we noted the report stated that residue control and
           processed product control were adequate at the sites visited.
           However, neither the report nor supporting review notes gave details
           concerning what was reviewed. The report for Country R stated that
           controls over laboratory reviews, disease, residue, and compliance
           fraud were in place but provided no information about the
           methodology used to arrive at this conclusion. The reports for Country
           A and Country E both noted that deficiencies were present at several
           establishments visited, but did not include the specific establishments
           where the deficiencies were disclosed.

           In some cases, the sufficiency of the review work performed could not
           be determined due, in part, to lack of adequate documentation of the
           work performed and any deficiencies disclosed. For example, as part
           of the 1997 audit report for Country P, the Technical Service Center
           reviewer offered no details of what was reviewed under residue
           control, compliance/economic fraud control, and processed product
           control. In addition, Country P’s national residue laboratory was not
           reviewed because according to the reviewer's notes, it had been
           reviewed the previous year. However, based on our analysis of the
           1996 report for Country P, we could not conclude that the national
           residue laboratory had been reviewed. For residue, the report stated
           only that “sampling and analysis is done per a residue national
           program, complying with USDA requirements.” No other
           documentation was provided to substantiate a review of the national
           residue laboratory. According to FSIS officials, the Agency followed
           up its 1998 onsite review with a review of one national residue control
           laboratory that was found satisfactory.

           We also noted in the audit report for Country P that no formal exit
           meeting was held with Country P’s meat inspection officials. The exit
           meeting section of the report stated, "the Head of the Meat Hygiene
           Unit accompanied the reviewer and was aware of findings and review
           results." However, the report did not identify any findings, so we were
           unable to determine the nature of the findings and review results of
           which the Head of the Meat Hygiene Unit was made aware.

           Based on our discussions with Technical Service Center staff, we
           concluded that the reviewers possess the competence and expertise
           needed to conduct onsite equivalency reviews of foreign food
           regulatory systems. Guidelines need to be developed to provide both
           reporting and evidence standards to support the adequacy of the
           onsite reviews and the resulting equivalency determinations. Based



USDA/OIG-A/24099-3-Hy                                        Section III, Page 83
             on discussions with TSC officials on April 6, 2000, a new reporting
             format has been developed to improve the reporting process.

                                   Ensure that reporting and evidence
 RECOMMENDATION NO. 34             standards developed for equivalency
                                   verification  reviews    provide    for
                                   appropriate documentation of all areas
       required to be reviewed by regulation.

             Agency Response

             According to 9 CFR 327.2 (a) (2) (iii) “Maintenance of eligibility of a
             country for importation of products into the United States depends on
             the results of periodic reviews of the foreign meat inspection
             system…” The regulatory requirement of periodic reviews does not
             mandate that each review encompass all aspects of a country’s
             inspection system.

             Nevertheless, FSIS is committed to ensuring that these reviews are
             consistent and thoroughly documented. At the time of the OIG audit,
             FSIS was in the process of developing an enhanced uniform audit
             format that addressed the following five risk areas: 1) animal disease
             controls; 2) sanitation controls; 3) enforcement controls; 4) slaughter
             and processing controls; and 5) residue controls. These five risk
             areas cover all of the FSIS regulatory requirements for countries that
             export to the United States. Subsequent to the OIG audit, the audit
             format was finalized.


             The new audit format has been implemented for all FSIS audits
             conducted in fiscal year 2000. Also, audit planning has been
             enhanced to ensure that onsite audits cover all relevant areas.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 84                                     USDA/OIG-A/24099-3-Hy
                                        We found that equivalency review reports
       FINDING NO. 14                   were not issued in a timely manner. For
                                        almost half the reports that bore a date
     EQUIVALENCY REVIEW                 and were released for onsite reviews
      REPORTS WERE NOT                  performed in 1997 and 1998, the elapsed
      ISSUED IN A TIMELY                time between the completion of the
           MANNER                       fieldwork and the issuance of the report
                                        was 4 months or longer.

           We conducted a comparison between the completion date for a
           foreign country's onsite review and the date of the final audit report for
           that country and noted that a substantial length of time had elapsed
           between these dates. As noted in Finding No. 3, the draft report is
           forwarded from the Technical Service Center to the Equivalence and
           Planning Branch for review and comment prior to issuance. In 1997
           and 1998, 37 foreign countries were subject to review as part of the
           HACCP and pathogen reduction requirements. In 1997, 30 onsite
           reviews were conducted by the Technical Service Center reviewers,
           but only 24 audit reports were issued. Reports were not issued for
           Country H, Country N, Country M, Country W, Country X, and
           Country Y. In 1998, 24 onsite reviews were conducted, but only
           17 reports were approved as final. As of July 1999, four reports were
           still in draft. These draft reports are for Country H (onsite review
           conducted in November 1998), for Country M (onsite review
           conducted in October 1998), and for Country Z and Country AB (both
           onsite reviews conducted in April 1998). Reports had not been issued
           for Country I, Country P, and Country Y as of the end of our field work.

           Of the 41 final reports that were issued in 1997 and 1998, seven
           reports were undated. Of the remaining 34 reports that included a
           date, we found delays ranging up to 15 months between the date
           the onsite review was completed and the date the final report was
           issued. Of these reports, 15, or 44 percent, were completed 4 to
           15 months after the onsite review.

           According to an April 3, 2000, document prepared by FSIS, the
           major reason that these reviews were not released within a shorter
           timeframe was that the Director of the Review Staff had to perform
           the functions of three positions: the Director of the Review Staff, the
           Branch Chief for Domestic Review, and the Branch Chief for
           International Review which precluded him from focusing only on the
           reports. In addition the document stated that the length of time for
           audit reports to be finalized does not preclude the agency from
           taking action on findings, and that depending on the seriousness of


USDA/OIG-A/24099-3-Hy                                          Section III, Page 85
             the finding, the Equivalence and Planning Branch initiates immediate
             action prior to the completion of the audit report.


 RECOMMENDATION NO. 35

             Develop procedures for timely completing reports documenting
             reviews of foreign inspection systems.

             Agency Response

             FSIS agrees with this recommendation. Formal procedures will be
             completed by December 2000. In 2000, new foreign country
             reporting requirements were instituted. Draft foreign country reports
             are due from the reviewers within 10 working days of their return to
             the office. Exceptions to the 10-day rule must be requested in writing,
             with justification, through the Branch Chief of the International Review
             Branch or Director of the Review Staff. Similar timeframes are in
             effect throughout the process, creating a timeline that has the report
             completed and in “Draft Final” form to be sent to the foreign country
             government officials for comment within 60 days from the date of the
             exit conference with the foreign officials. This 60-day commitment is
             also detailed in the cable that each reviewer sends to the foreign
             country prior to each audit. Because of language differences, and
             necessary time for response, the foreign countries are allowed
             60 days to submit their response to the report. The foreign country
             response is then added to the report as an attachment, and the report
             is finalized.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 86                                      USDA/OIG-A/24099-3-Hy
                       GENERAL COMMENTS

We noted that as part of the pre-audit process, FSIS transmits a copy of its audit
plan to the foreign country at least 30 days before implementation. The plan
identifies each establishment that the Technical Service Center reviewers will visit
during the onsite review. A document entitled FSIS Process for Evaluating the
Equivalence of Foreign Meat and Poultry Food Regulatory Systems, dated March
1999, states, "the audit protocol is sufficiently detailed to inform the exporting
country of the audit objectives, scope, and criteria, who they will be visiting, what
they wish to see, where they wish to go, and when they wish to do so." We found
that in one instance, a foreign country delisted an establishment that was known by
the government to be in noncompliance with U.S. inspection requirements after
receipt of the audit plan but prior to initiation of the onsite review. Therefore,
another establishment was selected since delisted establishments are not reviewed.
Having advance knowledge of the establishments selected for review may have
been the reason that the foreign government delisted the establishment. We were
provided with a copy of a letter sent to all countries concerning FSIS’ delistment
policy. However, in order to validate the true condition of a foreign country's food
regulatory inspection system during its onsite equivalency verification reviews. FSIS
should reconsider the benefits of providing advance notice to the foreign countries
of the establishments to be reviewed.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 87
Section III, Page 88   USDA/OIG-A/24099-3-Hy
EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24099-03-Hy                  Section III, Page 91
Section III, Page 92   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 93
Section III, Page 94   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 95
Section III, Page 96   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 97
Section III, Page 98   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 99
Section III, Page 100   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 101
Section III, Page 102   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 103
Section III, Page 104   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 105
Section III, Page 106   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 107
Section III, Page 108   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 109
Section III, Page 110   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 111
Section III, Page 112   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 113
Section III, Page 114   USDA/OIG-A/24099-03-Hy
     EXHIBIT B – COUNTRIES ALLOWED TO CONTINUE
     EXPORTING TO THE UNITED STATES PRIOR TO
     IMPLEMENTATION OF HACCP.
           Argentina                                   Iceland
           Australia                                   Israel
           Austria                                     Italy
           Belgium                                     Japan
           Brazil                                      Mexico
           Canada                               Netherlands
           Costa Rica                                  New Zealand
           Croatia                                     Nicaragua
           Czech Republic                              Northern Ireland
           Denmark                                     Poland
           Dominican Republic                   Republic of Ireland
           Finland                                     Romania
           France                               Slovenia
           Germany                                     Spain
           Guatemala                                   Sweden
           Honduras                                    Switzerland
           Hong Kong                                   United Kingdom
           Hungary                                     Uruguay


   NOTE:   Paraguay was delisted as an eligible exporter of meat products to the United
           States as of September 5, 1997.




USDA/OIG-A/24099-03-Hy                                         Section III, Page 115
Section III, Page 116   USDA/OIG-A/24099-03-Hy
                           ABBREVIATIONS

      E. coli       - Escherichia coli

      FSIS          - Food Safety and Inspection Service

      FY            - Fiscal Year

      GATT          - General Agreement on Tariffs and Trade

      HACCP         - Hazard Analysis and Critical Control Point

      OIG           - Office of Inspector General

      OMB           - Office of Management and Budget

      SSOP          - Sanitation Standards Operation Procedures

      USDA          - U.S. Department of Agriculture




Section III, Page 117                                      USDA/OIG-A/24099-03-Hy
